<html>
<title> - NATIONAL CONSTITUTION CENTER</title>
<body><pre>[Senate Hearing 105-535]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-535


 
                      NATIONAL CONSTITUTION CENTER

=======================================================================

                                HEARINGS

                               before the

                 SUBCOMMITTEE ON THE DEPARTMENT OF THE
                     INTERIOR AND RELATED AGENCIES

                                and the

                SUBCOMMITTEE ON LABOR, HEALTH AND HUMAN
                      SERVICES, AND EDUCATION, AND
                            RELATED AGENCIES

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARINGS

                               __________

                    MARCH 9, 1998--PHILADELPHIA, PA

                   SEPTEMBER 2, 1998--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
 49-445 CC                  WASHINGTON : 1998
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                           ISBN 0-16-057185-5



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         DALE BUMPERS, Arkansas
CONRAD BURNS, Montana                ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            BYRON DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BARBARA BOXER, California
                           Professional Staff
                              Bruce Evans
                              Ginny James
                             Anne McInerney
                             Kevin Johnson

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        DANIEL K. INOUYE, Hawaii
JUDD GREGG, New Hampshire            DALE BUMPERS, Arkansas
LAUCH FAIRCLOTH, North Carolina      HARRY REID, Nevada
LARRY E. CRAIG, Idaho                HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
  (Ex officio)                         (Ex officio)
                      Majority Professional Staff
                            Bettilou Taylor
                             Mary Dietrich

                      Minority Professional Staff
                              Marsha Simon

                         Administrative Support
                   Jim Sourwine and Jennifer Stiefel


                            C O N T E N T S

                              ----------                              
                                                                   Page

                         Monday, March 9, 1998

Opening remarks of Senator Ted Stevens...........................     1
Opening remarks of Senator Slade Gorton..........................     2
Opening remarks of Senator Pete Domenici.........................     3
Prepared statement of Senator Arlen Specter......................     3
Prepared statement of Senator Rick Santorum......................     4
Prepared statement of the National Park Service..................     5
Statement of Hon. Edward G. Rendell, mayor, city of Philadelphia, 
  PA.............................................................     5
    Prepared statement...........................................    10
Statement of James Pickman, development manager, Gateway Visitor 
  Center, and president, Gateway Visitor Center Corp.............    13
    Prepared statement...........................................    15
Statement of Joseph M. Torsella, president, National Constitution 
  Center.........................................................    17
    Prepared statement...........................................    19
Statement of Dr. Judith Rodin, president, University of 
  Pennsylvania...................................................    19
    Prepared statement...........................................    21
Partnership......................................................    22

                      Wednesday, September 2, 1998

Opening remarks of Senator Arlen Specter.........................    31
Statement of Hon. Edward G. Rendell, mayor, city of Philadelphia, 
  chairperson, National Constitution Center......................    32
    Prepared statement...........................................    33
Independence Hall................................................    39
Statement of Richard R. Beeman, dean, College of Arts and 
  Sciences, University of Pennsylvania...........................    43
    Prepared statement...........................................    45
Debating team....................................................    47
Statement of Joseph M. Torsella, president, National Constitution 
  Center.........................................................    47
    Prepared statement...........................................    50
Country symbols..................................................    52
  



                      NATIONAL CONSTITUTION CENTER

                              ----------                              


                         MONDAY, MARCH 9, 1998

                               U.S. Senate,
     Subcommittee on Interior and Related Agencies,
                               Committee on Appropriations,
                                                  Philadelphia, PA.
    The subcommittee met at 9 a.m., in Carpenters Hall, 
Philadelphia, PA, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, and Domenici.
    Also present: Senators Specter and Santorum.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF EDWARD G. RENDELL, MAYOR, CITY OF 
            PHILADELPHIA, PA

                   opening remarks of senator stevens

    Senator Stevens. Let me call the hearing to order, please. 
It is a great pleasure to be here today in this very historic 
building, and we are grateful to the Carpenter's Co., of 
Philadelphia. I am told that they offered this facility to the 
First Continental Congress; and we appreciate the continued 
hospitality of the Carpenter's Co., today and also the city of 
Philadelphia, Mayor Rendell and his lovely wife Midge last 
night having a chance to visit.
    I want to thank the mayor and Senators Specter and Santorum 
for the hospitality they have shown me and other members of the 
committee and the interesting discussions we have had so far. 
We have gone over the development plan for the Constitution 
Center, and we have allocated some time here this morning--I do 
not know how long the rain's going to hold off. We appreciate 
everything you have done to arrange this meeting. I think it is 
very important the subject we are discussing.
    I served on the Commission on the Constitution with a 
former Chief Justice, and I do believe that celebrating the 
Constitution and helping to educate our children is one of the 
tasks that we should undertake, educating them concerning the 
Constitution and the meaning of the Constitution. And it is 
really of great importance to our lives as Americans.
    Now, we have this morning a period of time which we have 
allocated to be here. We must return to Washington slightly 
after noon. We have set some time limits here on you gentlemen 
and the statements you want to make, but let me just put it 
very plainly, Mr. Mayor: We are going to leave right after 
noon. You use the time however you want. Now, if you want to 
take the full 2 hours to talk to us right now, you can go right 
ahead and do that.
    We would like to have a chance to walk down the mall, and 
we will not melt if it is raining. We will be happy to take a 
walk in the rain, but I want you to know that I am the chairman 
of the full committee. But under the circumstances since 
Senator Gorton is chairman of the subcommittee that has 
jurisdiction over this matter and if you want to get the money, 
you have got to talk to him. [Laughter.]
    We allocate money--the chairmen do--among the 
subcommittees; but after Senator Gorton gets the money, he 
makes the recommendations to the committee as to how the money 
is to be spent. And normally, normally, the subcommittee 
chairmen are like cardinals. The only difference is I am not 
the Pope, and I cannot change that very easily.
    So let me do this, let me welcome our colleagues from 
Pennsylvania who are with us here today, Senator Specter and 
Senator Santorum. Senator Domenici who is the chairman of the 
budget committee; and if you read the morning paper, you know 
he has got to get back today, too, because he is going to 
markup his bill this week. But I leave it to Senator Gorton to 
chair the full hearing today. Thank you very much.

                opening remarks of senator slade gorton

    Senator Gorton [presiding]. I thank Senator Stevens for 
that, and I really appreciate the welcome that we have received 
here, Mr. Mayor, from you and from members of your staff and 
from the two extremely persistent U.S. Senators from the State 
of Pennsylvania. And the fact that three others of us are here 
today is a tribute to them.
    For me, it is a wonderful experience. One of my most 
favorite books in my library is Katherine Drinker Bowen's 
``Miracle in Philadelphia.'' I went out for my morning run and 
did the mall and was thrilled by what I saw. The idea that we 
should have a memorial, a physical memorial, in place in which 
to celebrate the Constitution of the United States, I believe 
is thoughtful and brilliant and extremely valuable.
    Where we come up with the money, of course, is another 
question. Senator Stevens has described the way in which we 
operate, and my subcommittee--we get a certain number of 
dollars for a wide range of functions. To the best of my 
memory, the total amount we get each year for capital 
investments is a little bit over $100 million for the entire 
United States and the whole Park Service.
    But last summer Senator Santorum talked me into an extra $1 
million or so for a refurbishment at Gettysburg here in your 
State. So we are here to come listen to the case that you have 
to make to see whether or not we can come up with an 
imaginative way in which to help you in what I consider to be a 
wonderful project. The question being, how we can come up with 
money to pay for it.
    And with that, of course, your own Senator Specter is also 
a chairman of an even larger subcommittee of the Appropriations 
Committee. And we should probably hear from the two Senators 
from Pennsylvania, but maybe we will let them go last and hear 
next from Senator Domenici.

                opening remarks of senator pete domenici

    Senator Domenici. Thank you very much, Mr. Chairman. Mr. 
Mayor, I want you to also know that in addition to being budget 
chairman I am on the Interior Subcommittee. So if you all were 
watching the Senate floor during the past week and saw Senator 
Specter and I talking on the floor, and Senator Santorum and I, 
you might wonder in what deep thoughts we were involved. 
Actually, they were there to lobby me all week long to make 
sure I came here. [Laughter.]
    On Friday, I finally decided that I could get away; and I 
am very pleased to be here. It has been a pleasure meeting you, 
Mr. Mayor, and seeing just a little bit of a side of you that 
makes you a great mayor. It has been a pleasure being with you, 
and to meet your wife last night was a distinct pleasure.
    Mr. Torsella, it was good to be with you. When you told me 
what your title was, I almost asked you how old you were.
    Mr. Torsella. I am 60; I am just very healthy.
    Senator Domenici. You do look very young for such a 
formidable job, but I have no doubt that you are going to 
succeed. I did want to put a plug in for way out West since 
frequently in the East all you easterners think the only 
American history is back here. We are celebrating the 400th 
anniversary in my State of the arrival of the Hispanics setting 
up a capitol for Spain in America in my State. So we have a 
little bit of another side of history.
    Let me say from the standpoint of an American and a U.S. 
Senator wherever you are from, New Mexico, Alaska, or New 
Jersey, it is obvious that the Constitution is something very 
sacred to us all. To the extent that you are proposing to do 
more by way of getting Americans to recognize this fantastic 
part of our heritage, I commend you; and I hope your plans for 
doing this in a more formidable way than in the past are 
achieved.
    Whether we will be able to be a full partner immediately, 
we will wait and see; but obviously, it is good that we are 
here. Thank you, Mr. Chairman.

                opening remarks of senator arlen specter

    Senator Specter. Thank you very much, Mr. Chairman. I thank 
Senator Stevens, and Senator Gorton, and Senator Domenici for 
coming to Philadelphia today. Senator Santorum and I take great 
pleasure and pride in having this Appropriations Committee 
hearing on location. I believe that it is unprecedented to have 
the full Appropriations Committee meet in a field hearing of 
this sort. At least, none has occurred during my tenure in the 
Senate.
    I believe that this is a very important matter to be heard 
by the committee. The Constitution Center, I believe, will 
have, could have, important aspects for the country as a whole. 
I think part of what the Constitution Center will be directing 
its efforts toward is not only of the buildings here in 
Philadelphia, but active programming to educate Americans 
across the land as to what the Constitution means.
    We come upon it every day. Right now there is a fixed 
debate in the Congress about the President's authority as 
Commander in Chief versus the constitutional authority of the 
Congress to declare war as we take a look at the Iraqi issues. 
We have just finished after years of efforts to pass 
legislation on a line-item veto, but that is now in the hands 
of the Supreme Court as to whether it squares with the 
Constitution.
    Yesterday I was asked a question which is on most people's 
minds: What does it take to impeach a President? I started to 
refer to the Constitution, and I was interrupted by the 
questioner. They did not want to hear anything about the 
Constitution. I said, well, the Constitution is where you 
start. It is high crimes and misdemeanors. People do not 
realize that the Constitution has great force and bearing on 
virtually everything that happens in America.
    As the Supreme Court has interpreted the Constitution in so 
many 5 to 4 decisions, the document becomes even more 
important. We know the statistics that school children and high 
school children or students and Americans generally do not know 
the Constitution. So I think that this could be a great 
learning experience for America if handled properly.
    The sum of money is difficult, but I know that Senator 
Gorton, and Senator Stevens, and Senator Domenici, and the rest 
of the committee, and the Congress will give a very careful 
thought; and if possible, it will be done. Thank you very much, 
Mr. Chairman.
    Senator Gorton. Senator Santorum.

                opening remarks of senator rick santorum

    Senator Santorum. Thank you, Mr. Chairman. I, too, want to 
join my colleague Senator Specter in thanking all of you for 
taking time to come up to Philadelphia. We have had a good time 
here learning more about this, and you are going to learn a lot 
more information today.
    The mayor has done a great job, and I want to congratulate 
him and all of his people for putting together a very 
impressive gathering. The mayor has done great work in moving 
the National Constitution Center to this point. The center is 
close now, I believe, to a reality. I am very hopeful, like 
Senator Specter, that the committee can be as helpful as 
possible.
    Just two comments, this country learns, No. 1, more and 
more--particularly children, from real life interaction. The 
abstract is ever more difficult in a concrete age that we have 
today. It is very difficult for children to learn, and the more 
we can give them to get their arms around, the better 
understanding they will have. This is one reason, I believe, 
this center is so important.
    The other reason the center is important is because symbols 
are important. Whether it is the symbol of Independence Hall or 
whether it is the symbol of the Lincoln Memorial, the Capitol, 
or the Statue of Liberty, they all burn in us some sense of 
what the concepts of liberty and freedom mean.
    I really believe that having a physical place where people 
can experience the Constitution will be very important to the 
psyche of America. It will burn in those responsibilities and 
rights that we have within the Constitution. I am hopeful that 
we can do that today. We have a group of students from Horace 
Furnace High School here in Philadelphia. Two classes. One that 
studied the Constitution. One that studied the appropriations 
process. Bless your heart for that. [Laughter.]
    But for them, it is an abstract concept. Having something 
physical they can interact with, will be very important for 
their learning experience. Thank you, Mr. Chairman.

            prepared statement of the national park service

    Senator Gorton. With that, we do have a statement here from 
the National Park Service that will be included in the record.
    [The statement follows:]

  Prepared Statement of the Department of the Interior, National Park 
                                Service

    The National Park Service [NPS] appreciates the opportunity 
to provide the following statement regarding the National 
Constitution Center [NCC].
    The NPS entered into a cooperative agreement with the NCC 
on May 11, 1990, pursuant to the authority contained in Public 
Law 100-433, the (Constitution Heritage Act of 1988. Under the 
terms of that agreement, the NPS has provided annual statutory 
aid to the NCC as appropriated by Congress for operating 
expenses to support the Fusion of the NCC as stated in the act. 
The NPS has included the NCC in its final General Management 
Plan (approved 4/97) for Independence National Historic Park 
and the Independence Mall Master Plan. The plan calls for the 
placement of the NCC structure on the Third Block of the Mall.
    In fiscal year 1999, the NPS is requesting a statutory aid 
increase of $264,000 above the fiscal year 1998 level of 
$236,000 for a total of $500,000. The increase in funding is 
specifically provided to support planning involved in the 
development of a new structure. The NPS welcomes the NCC within 
the boundaries of Independence National Historic Park, and 
supports both the construction of an appropriately sized 
facility and the creation of a center with programs that 
complement the interpretive activity already provided by the 
NPS at Independence NHP.
    Furthermore, the NPS supports the continuation of statutory 
aid to the NCC for its operating expenses, and we are hopeful 
that their capital campaign will achieve the goal of funding a 
structure which is compatible with its purpose. The fiscal year 
1999 budget does not include funding for construction. We 
understand that the Administration is willing to explore 
options for appropriate federal contributions if agreement can 
be reached on a suitable project scope and cost sharing 
arrangement during the planning process.
    The Independence NHP as well as most other parks in the 
system have extensive unmet construction needs involving 
deferred maintenance, rehabilitation, replacement and resource 
preservation. Addressing these needs must take precedence over 
this major new development project.
    In summary, we look forward to continuing our partnership 
with the NCC as it evolves, and working with the NCC to achieve 
its aims as embodied in the act. We support their efforts to 
raise private funding for their structure.


              summary statement of hon. edward g. rendell


    Senator Gorton. We will now start with the mayor's 
presentation. Mr. Mayor, thank you again for your hospitality, 
and we are at your disposal.
    Mr. Rendell. Well, Senator, thank you very much. Again, our 
personal thanks to you and Senator Stevens and Senator Domenici 
for taking the time to come up here. As Senator Specter said, 
it is extraordinary to have a field hearing like this; and we 
thank you very much for that. We believe that this is an 
extraordinary subject, but we appreciate your taking the time 
to be with us.
    We also deeply appreciate the work of our own two Senators, 
Senator Specter and Senator Santorum, who on this issue as on 
all issues have had a tremendous working relationship with not 
only myself as mayor, but with all of the people of 
Philadelphia in trying to advance the things that will continue 
to make our city a great one. And we pride ourselves in being 
the most historic city in America, not withstanding the 400 
years of civilization and government in New Mexico, probably 
without question more things of importance in the development 
of this country happened here in Philadelphia than anywhere 
else.
    We pride ourselves in that, and it is a central part of 
what we do, but we appreciate all the things that the Senators, 
our own two Senators, have done to advance our cause in 
Washington. And as you know in 1988, this Congress and 
President Reagan passed legislation creating the National 
Constitution Center; and it gave us a mandate to promote the 
education of the Constitution among the American people, adults 
and children alike.
    And in that mandate, there were two aspects of it. They 
asked us to continue--to begin immediately to programming that 
would, in fact, bring knowledge of the Constitution throughout 
the United States of America and at the same time plan for a 
museum on or near Independence National Historic Park to be 
dedicated to this great document, its interpretation and the 
education of people for the great document itself.
    I think the first mission the National Constitution Center 
has done very well. Over the last decades, we have won awards 
for the program we have developed, radio shows, materials that 
we sent out throughout the country, and contests we have run to 
promulgate to interest in education in the Constitution. We 
maintain a library of lesson plans given to us by the Warren E. 
Burger repository, and those lesson plans are now available on 
our website and can be downloaded--over 800 lessons plans can 
be downloaded to teachers all over the Untied States of 
America. And many of those lesson plans are ingenious ways to 
make learning about the Constitution relevant to students in 
the 20th century and as we go into the 21st century.
    We also run a program all across America during 
Constitution Week called ``I Signed the Constitution'' where 
people are asked to come in at libraries, schools, Government 
offices and sign copies of the Constitution, put their names 
next to Madison and Jefferson; and they get a pocket 
Constitution, one of which is included in the front of your 
book.
    And we were able to find--even though the ``I signed the 
Constitution'' takes place in locations all over the 50 States, 
we asked people who were at our sites to send back in pictures 
or reports to us. And we just coincidentally have two from 
Washington, the State of Washington, from a librarian at the 
Jefferson County Library in Hadlock, WA, where 150 students 
signed the Constitution. They sent us in pictures, and we also 
have one from the Olympia Timberland Library where 250 
individuals came in and signed the Constitution. And there is a 
great picture of a young person with the librarian signing the 
Constitution, and I would like to pass those up to Mr. 
Chairman, as well as an editorial in the Seattle Times talking 
about the very subject of the Constitution during the last 
Constitution Week and how it is important for all Americans 
from Maine to Alaska, from Washington to Florida, New Mexico 
also--important to all Americans that we learn more about the 
Constitution.
    Mr. Chairman, I would like to pass those up and make them 
part of the record. And so I think we have done a great job in 
fulfilling our first mission. We have developed a website with 
the University of Pennsylvania, and you will hear more from its 
great president, Judith Rodin, who has led the university to 
become our academic partner.
    And that website has generated a tremendous amount of 
interest, and we have done this over the last decade on a 
budget of slightly more than $1 million of which $230,000 comes 
to us from the Federal Government from your committee and the 
House committee and has to be matched. And, or course, it is 
matched; and on a budget of about $1 million with no permanent 
home, we rent office space. We have tried to carry out our 
mission throughout the length and breadth of this country.
    But unfortunately, we are simply not reaching enough 
people. That is something we suspected; and this past year as 
part of Constitution Week and the Constitution Week we have 
honored people who have advanced the cause of the Constitution 
and have been great heroes in the name of the Constitution. Two 
years ago, we honored Senator Byrd and Senator Hatfield here in 
Philadelphia; and this year as part of Constitution Week, we 
commissioned a poll to find out if we really were reaching 
Americans or there was this gap that we thought there might 
exist.
    In fact, the poll results were both very discouraging on 
the one hand and very encouraging on the other hand. They were 
discouraging because as we suspected Americans have a basic 
lack of knowledge about the Constitution. Some of that lack is 
shocking. One-half of our citizenry do not know the number of 
U.S. Senators that sit in Washington. Only 6 percent of our 
citizens can name the four basic freedoms guaranteed by the 
first amendment. One out of three Americans do not know how 
many branches there are of the Federal Government, and two out 
of three Americans cannot name those three branches. Thirty-
five percent of Americans believe that the Constitution 
establishes English as the official language of this country.
    And I could go on and on with examples that are 
discouraging, but there is good news in the same poll. And the 
good news is: Despite this lack of knowledge, 91 percent of the 
American public believes that the Constitution is important to 
them; and 84 percent believe even if they do not know about the 
Constitution believe for the Constitution to be successful, to 
have its maximum impact, it is important that the American 
people know and understand the basic tenets of the 
Constitution.
    And this poll convinced me more than ever that we needed a 
building that was a center for interpretation that could be 
visited by families where children could have a great time and 
at the same time absorb learning in an interactive type way, a 
center which would be a place, an academic place, where debate 
about the Constitution, reflection on the Constitution, study 
and work about the Constitution could take place. Do you know 
it is ironic that perhaps the greatest document ever created by 
man and womankind in the history of this planet has no museum 
dedicated to it? In the United States of America, we have 
museums dedicated to the peanut, to pound cake, to gourds, to 
insects, to NASCAR racing, and to Barbara Streisand; and yet, 
we do not have a museum anywhere in the length and breadth of 
America dedicated to the most important document in this 
country's history and maybe respectfully in the history of the 
world.
    So I believe it is important, and I believe it can fill the 
need. Last night in our informal session, there was some 
question--no question about the need, question about even this 
type of great institution, whether it could accomplish the goal 
of educating Americans more about the Constitution. Now, I 
believe the answer to that is yes, not all Americans. We do not 
delude ourselves. But we believe that in a decade 15 million 
people will visit this new center, and we believe that they 
will absorb. We believe many of the young people will be 
inspired, and we believe this will fill a desperate need.
    When I got home last night, I looked for a letter that I 
had received recently from a schoolteacher in New York, 
Larchmont, NY; and it was sent to me on February 25, probably 
received a few days later. And I will not read the whole 
letter, but she tells me that they are going to be in 
Philadelphia, her class of 25 students, and would I have time 
to see them; the class has studied the Constitutional 
Convention and even dramatized our version of the events; so 
the events of 1789 are well known to them; in addition, we have 
just completed a simulation of hypothetical contemporary first 
amendment rights case in which the class assumes role of 
attorneys and Supreme Court Justices.
    I would submit, Senator, we may not be able to reach the 
entire American population; but if we reached 25 kids like this 
and we produced a Supreme Court Justice or a Senator or a great 
teacher because of what they experienced here and because of 
the emotions that could be rekindled at a museum like this, 
then I would submit that it is well worth the money that we are 
asking you to appropriate and that we must raise ourselves.
    And with your support, we can build this center. The center 
will cost $130 million. We are asking over the next 3 years 
that the Federal Government approve one-half of that in a 
matching grant, money only to be spent if we can come up with 
the other 65. I am certain that we can. The Commonwealth of 
Pennsylvania has put in its capital redevelopment assistance 
budget $30 million for this purpose, and I believe we can raise 
the remaining $35 million both locally and nationally across 
the length breadth of this country. We understand, obviously, 
the priorities as a mayor of a city who inherited a $1.5 
billion potential deficit, I understand that we have to make 
choices. There is no question about that.
    And I understand how legitimate the demands were. I have to 
say no to more money for libraries, more money for parks, more 
money for recreation centers, more money for after school 
programs. I have to say no in my first couple of years if we 
were ever going to put ourselves in a position to grow and 
develop and to have a tax base broad enough to support that 
type of spending; and fortunately, for us, we have gotten 
there.
    But the spending that we are asking from the Federal 
Government, although significant in dollars, is, I think, 
less--I think in context it is less than it might seem. You 
have before you what we call the Independence Mall, a very key 
part of Independence National Historic Park. And you will see 
that there our basically three blocks to the mall starting on 
Chestnut Street where Independence Hall faces out and faces 
north.
    That three block area was part of a general management plan 
that the Park Service has been studying for several years. It 
is in that GMP that the Constitution Center got its location. 
Up until then, we did not have a location; but in the GMP, the 
Park Service with terrific leadership by Martha Aikens and 
Marie Rust gave us a location at the front part of the third 
block.
    And the entire mall restoration is going to happen in 
phases. Phase 1 is underway, and that is for block 1 and block 
2. And Jim Pickman, who is a consultant for the Pew Charitable 
Trust and the Gateway Visitor Center, he will walk you through 
this in his brief presentation so I am not going to belabor it. 
But phase 1 includes block 1 and block 2 where we will get a 
new building for the Liberty Bell, an interpretive center for 
the Liberty Bell, a total change in the landscaping. Block 2 we 
will create a wonderful new visitor center called a Gateway 
Visitor Center, also a change in the landscaping and the 
sculpting of the second block.
    There must be renovations to the parking garage that is 
below the second block. All told, this is a $65 million plus 
project. We have been able to do this project with only a 
request for $3.5 million from the Federal Government. The rest 
of the money has been put in increments by the city of 
Philadelphia, the Commonwealth of Pennsylvania, the Pew 
Charitable Trust, Ambassador and Mrs. Annenberg, and the 
Philadelphia Parking Authority. That is a renovation of 
probably two of the most historic blocks in America for only 
$3.5 million of Federal money.
    And I do not believe, respectfully, that that occurs in 
national parks very often where the local government and the 
local charitable and business community has undertaken to put 
up 90 percent of the money. So in phase 2, we are asking for 
$130 million to be spent, albeit $65 million, half in Federal 
allocation; but the total Federal allocation for the revamping 
of these three historic blocks is less than one-third of the 
entire price. And that is something that we are proud of.
    It is also true, as Senator Specter said last night, we are 
not asking for any continuing operating funds. So over a 10-
year period, we hope--and we need to get this money in the next 
3 years hopefully. But over a 10-year period your total 
spending for this project will be about $68 million. If I can 
contrast to two very worthwhile projects--one extraordinarily 
worthwhile--the Holocaust Museum which over the first 10 years 
of its life span will cost the Federal Government $333 million 
in operating costs and Steamtown USA in northeastern 
Pennsylvania which will cost the Federal Government some $90 
million in both capital and operating costs over 10 years.
    The price for this crucially important, crucially 
important, project put in that context, I think, is a 
relatively modest one. And that does not in any way, shape, or 
form denigrate your difficult task in appropriating the limited 
sum of money, but I did want you to see our request in the 
perspective of other initiatives.
    So it is our hope we can do this. It is our hope that we 
will break ground on Constitution Day in the year 2000; and 
that 2 years later, people can stand in front of Independence 
Hall--and we are going to have the opportunity to start our 
tour hopefully from Independence Hall--look down the Mall where 
there is basically nothing other than a Liberty Bell Pavilion 
that is not what we would like it to be; and they will be able 
to look down two clear and beautiful blocks with the Liberty 
Bell arrayed in a wonderful glass pavilion to their left with 
the Gateway Center a block further arrayed to the left with 
sculptured gardens to the right and look down clearly to the 
end of the mall at the beginning of the third block and see the 
Constitution Center.
    And when people come out of the Constitution Center, they 
will be able to look down; they will be able to look south and 
see the same vista but see a Independence Hall. So we will 
frame the most historic three blocks in America with the 
Independence Hall in the south end, and the Constitution Center 
in the north end.
    We were discussing this in our informal meeting last night, 
in an age when we often dwell far too much on what divides us, 
I believe the Constitution Center will focus on what unites us. 
And that is a set of political beliefs, though often 
misunderstood and not practiced, that still command in America 
almost universal assent. When people try to assail something 
important in the Constitution, Americans whether they be 
liberal conservative, Democrat or Republican rally to the 
banner of the Constitution.


                           prepared statement


    It is something that unites us in an age where we seem to 
in the spirit of partisanship tear at each other, and I think 
its importance cannot be overemphasized. And it was right here 
in this room when, as Chairman Stevens said, the First 
Continental Congress began the journey to make America into one 
nation over two centuries ago. I think nothing could be more 
appropriate than this committee meeting here in the same place 
to ensure that that great American journey continues 
successfully for centuries to come.
    I thank you for coming to Philadelphia and thank you for 
your attention.
    [The statement follows:]
                Prepared Statement of Edward G. Rendell
    Good morning, Mr. Chairman, and thank you for the opportunity to 
testify to this committee regarding the National Constitution Center 
located in the city that is both the birthplace of America and my home, 
Philadelphia. I especially want to thank you and the members of the 
committee for travelling here today to see, firsthand, our plans for 
what has rightly been called the most historic square mile in the 
United States. We are deeply grateful to all of you, and to your two 
colleagues and Pennsylvania's dedicated senators, Senator Specter and 
Senator Santorum, for their leadership on this issue, today and in the 
past.
    The National Constitution Center (NCC) was established by the 
Constitution Heritage Act of 1988, passed by Congress and signed by 
President Ronald Reagan. In that Act, Congress created NCC as an 
independent, non-partisan, and non-profit organization and charged it 
with two goals: first, fostering increased awareness and understanding 
of the United States Constitution, and second, eventually building on 
or near Independence Mall a permanent facility dedicated to 
interpreting for visitors this great document and the system of 
government it created.
    In the past 10 years, NCC has done an excellent job, with extremely 
limited resources, towards its first objective: education. We have 
developed award-winning radio programming, materials, and contests. We 
maintain a library of curricula and lesson plans on the Constitution, 
the Warren Burger Repository, which we make available free to teachers 
around the nation. Each September 17th, we commemorate the anniversary 
of the signing of the Constitution with our trademark ``I Signed the 
Constitution'' program. Citizens literally sign a parchment replica of 
the Constitution, adding their name next to Madison's or Washington's, 
and receive in return educational materials which change each year. An 
estimated 1.5 million Americans have participated, and the program is 
held in all 50 states of the union, at schools, businesses, national 
parks, government offices, and hundreds of other sites. Each year, we 
distribute hundreds of thousands of pocket-sized copies of the 
Constitution. And last year, we opened an exciting website about the 
Constitution in conjunction with our partner, the University of 
Pennsylvania. This website received an extraordinary 200,000 ``hits'' 
in its first two weeks of operation. We do all of this on an annual 
budget of approximately $1 million, supported in part by federal aid of 
approximately $230,000 each year.
    But we are simply not reaching enough Americans. Despite our best 
efforts, and the efforts of other dedicated groups and individuals, far 
too few Americans have even a basic working knowledge of the 
Constitution and its role in their everyday lives. And, as all of you 
know, the Constitution will not work by itself. The system it designs 
assumes an informed and involved citizenry. Today, we are in danger as 
never before of losing that invisible glue that holds the Constitution 
together.
    Last September, NCC commissioned the first-ever comprehensive poll 
of Americans' constitutional knowledge. The startling results 
demonstrate our appalling ignorance of how our government works:
  --More than half of those polled DO NOT know the number of U.S. 
        Senators;
  --only 6 percent can name the rights guaranteed by the First 
        Amendment and almost one-quarter cannot name a single first 
        amendment right;
  --1 out of 6 believe that the Constitution establishes America as a 
        Christian nation;
  --35 percent believe that the Constitution mandates English as the 
        official language; and
  --about 1 in 3 do not know the number of branches in the federal 
        government and about 2 in 3 cannot name all three branches.
    Overall, just 5 percent of all adults could correctly answer ten 
basic questions about the Constitution. If our poll had been a test, 
our nation would have received an ``F.''
    There was, however, some good news in the poll. While I was 
dismayed by our lack of knowledge, I was surprised and pleased by the 
poll's findings on our reverence for the Constitution. Ninety-one per 
cent (91 percent) of Americans believe the Constitution is important to 
them. Eighty-four per cent (84 percent) believe that for a 
constitutional system to work they must be active and informed 
citizens. It is this paradox between knowledge and reverence which 
provides reason for great optimism. The picture that emerges from the 
NCC poll portrays us as a citizenry which knows little but is motivated 
to know much, much more.
    These statistics are why the National Constitution Center has 
recently dedicated itself to the second goal contemplated in the 1988 
legislation: building the first-ever museum dedicated to the document 
from which the soul of our government grew and flourished. And these 
statistics are why, just over a year ago, I accepted the position of 
Chairperson of NCC, even though I have never before or since taken a 
position outside of government during my term as Mayor. I believe that 
building this museum and reversing this tide of ignorance is absolutely 
critical to the health of our democracy.
    It is astonishing that there is no museum devoted to this 
incredible document, probably the finest political creation of man and 
womankind. For two centuries, the Constitution has made the United 
States into the most successful democracy the world has ever seen. It 
has inspired, and been emulated by, hundreds of other nations, 
literally remaking the globe. But--even here in the city where it was 
born--the Constitution is homeless. As one commentator has written, 
``The United States has museums devoted to the appreciation of peanuts, 
cakes, gourds, NASCAR racing and Barbara Streisand, but it has none 
that concentrates on this supple framework for history's most 
successful experiment in democracy.''
    Today we are on the verge of righting this wrong, of at last 
realizing the dream you first laid out in the Constitution's 
bicentennial. With your support, the Constitution Center can break 
ground on the first Constitution Day of our third millenium, September 
17, in the year 2000. In recent months, there have been several 
important developments that have put this project on a fast track.
    First, the National Park Service (NPS) included the Constitution 
Center in the final General Management Plan (GMP) for Independence 
National Historical Park (INHP). The GMP was developed through the 
visionary leadership of our local park officials, especially 
Superintendent Martha Aikens and Regional Director Marie Rust. As you 
will hear from the other witnesses, the GMP, finalized last summer, 
outlines a comprehensive set of exciting projects planned for 
Independence Park, comprising the most significant changes to 
Independence Park in a generation. They include a new building and site 
for the Liberty Bell, a new Gateway Visitor Center, a new Constitution 
Center, new visitor amenity facilities, and a complete restructuring of 
the layout and landscape architecture for the Park. This restructuring 
will transform Independence Mall from a failed public space into a 
vibrant plaza which uniquely captures the spirit of the American 
experience. And the proposed Constitution Center--placed opposite 
Independence Hall as the northern anchor of the Park--will be central 
to this transformation. In calling for construction of the Constitution 
Center, the GMP recognizes, as Congress has, that the Constitution 
deserves a state-of-the-art interpretative facility at the place of its 
birth.
    A second important development has been that we at NCC have 
sharpened our plans for such a center, and are ready to proceed. As you 
will hear, what we propose is vastly different from a typical museum. 
The Constitution Center will be an exciting, interactive, and even 
entertaining place. It will not just deal with the history of the 
Constitution, it will show visitors the document's contemporary 
relevance to their daily lives. And the Center will be one-half museum, 
accommodating an estimated 1 million visitors, and one-half center for 
study and debate, reaching many millions more. The total capital budget 
for the project will be $130 million, which includes the costs of 
detailed planning and design, construction, contingency, and an 
endowment fund to defray admission pricing. As I mentioned, the Center 
will break ground on Constitution Day, 2000, and will open its doors to 
the public two years later.
    Third, in the last year, we have developed partnerships to ensure 
that this venture is truly a collaboration between all levels of 
government, and with the private sector. In particular, the 
Commonwealth of Pennsylvania has made an impressive commitment to this 
project. Last October, through the leadership of Pennsylvania Governor 
Tom Ridge, the leaders of the Pennsylvania General Assembly and Senate, 
and Representative Robert Godshall, Chairman of the General Assembly's 
Tourism Committee, the Pennsylvania legislature authorized the spending 
of $30 million toward the construction and development of the 
Constitution Center. Additionally, approximately one-half million 
dollars was appropriated to continue to expand programming currently 
offered by NCC. At the same time, we developed an exciting new 
partnership with the University of Pennsylvania to jointly develop 
Constitution-related programming now and for the Center. These are just 
two examples that illustrate how this project is becoming a true model 
of the type of public-private partnership which you and I, as elected 
officials, strive to create.
    For all of these reasons, now is the moment to turn this dream we 
all share into a reality, and I am here today to ask this committee to 
do just that. As you know, the Administration has requested a funding 
increase in the statutory aid category for NCC. In fiscal year 1999, a 
request of $500,000 has been proposed. While we appreciate the 
administration's support of NCC programming and recognition of the 
progress we have made toward building the Constitution Center, we are 
at a point in time when greater federal support is needed. We seek $65 
million in federal support over the next three fiscal years in order to 
complete the design and construction of the Constitution Center. This 
amount represents one-half of the total estimated project cost. The 
remainder will be raised from state and local governments, and private 
donations, and I am confident that we can raise the necessary amount. 
This project has already attracted extraordinary support--including the 
participation of Presidents Bush, Reagan, Carter and Ford, all of whom 
serve with their wives on our Honorary Board--and the momentum of our 
private fundraising will increase dramatically in response to a strong 
lead from Congress.
    We ask that your committee support a fiscal year 1999 appropriation 
of $20 million directed to the Constitution Center, with two future 
installments funding the balance. This funding would be used for a 
variety of activities including architectural costs, exhibit design, 
content development, construction and program management, museum 
consulting and project management at NCC.
    I want to emphasize that the amount we are requesting, although 
one-half of the capital budget for the Constitution Center, represents 
an even lower percentage of the capital costs of all the improvements 
called for in the GMP. The combined cost of the other GMP projects I 
mentioned earlier is an additional $75.6 million. So the total capital 
cost for all the improvements to Independence Mall, including the 
Constitution Center, is approximately $205.6 million, and a $65 million 
federal contribution to NCC would represent less than one-third of that 
amount.
    This is an important point, since all of the other major capital 
projects--the Liberty Bell Pavilion, the Gateway Visitor Center, the 
parking garage--are being built with non-federal funds. As you will 
hear, of the total required, we have already raised $58 million from 
non-federal sources--the City of Philadelphia, the Commonwealth of 
Pennsylvania, and from generous private donors including the Pew 
Charitable Trusts and Ambassador and Mrs. Walter Annenberg--and these 
projects will begin construction shortly. (This $58 million is in 
addition to the $30 million authorized by the Commonwealth for the 
Constitution Center).
    We in Philadelphia are proud of this tremendous accomplishment. We 
are turning to this committee only after exhausting other sources of 
support, and demonstrating to you the depth of our commitment to this 
project before we ask you to make yours. Independence Mall is perhaps 
the most historic few blocks in America. It is fitting that the rebirth 
of these precious sites will be a true and meaningful partnership 
between the federal government, state and local government, and the 
private sector.
    I would like to clarify for the committee that the funding we seek 
for fiscal year 1999, 2000, and 2001 will be our full request for NCC. 
The fundraising plan for NCC has never envisioned the participation of 
the federal government in the continued operation and maintenance of 
the NCC after construction of the Constitution Center is completed. We 
expect that market demand, subscriptions, endowment income, and other 
non-federal fundraising mechanisms will serve as the source for 
operating and maintaining this great treasure.
    Mr. Chairman, as an elected official I understand and appreciate 
the many difficult decisions you and your colleagues are asked to make 
on a daily basis. Like the City of Philadelphia, the Commonwealth of 
Pennsylvania, and this country, this committee faces many challenges 
that need to be addressed, and will always have more needs than 
resources.
    Nevertheless, I urge you to make the Constitution Center a priority 
project for this committee, for Congress, and for the nation. America 
and Americans deserve it and, in fact, require it, if the flame of 
freedom is to continue to burn bright. Only when Americans understand 
how their government works can they fully participate in its 
operations. As Judge Learned Hand wrote, ``Liberty lies in the hearts 
of men and women: When it dies there, no Constitution, no law, no court 
can even do much to help it.''
    In an age when we often dwell on what divides us, the Constitution 
Center will focus on what unites us: a set of political beliefs that, 
while often imperfectly understood and practiced, still command nearly 
universal assent. It was in this room, more than two centuries ago, 
that America began its journey toward becoming a single nation. What 
could be more appropriate than for this committee, meeting here, to 
ensure that journey continues successfully for centuries to come?
    Thank you.
STATEMENT OF JAMES PICKMAN, DEVELOPMENT MANAGER, 
            GATEWAY VISITOR CENTER, PRESIDENT, GATEWAY 
            VISITOR CENTER CORP.
    Senator Gorton. Mr. Pickman.
    Mr. Pickman. Thank you, Mr. Chairman and Senators. My name 
is Jim Pickman. I am managing the development of the Gateway 
Visitor Center and am helping to coordinate with the National 
Park Service, the city, and the Commonwealth, and a range of 
private sector partners a first phase of redevelopment of 
Independence Mall.
    I would like to make--before I stand up at the chart, I 
would like to make three points. The first is that the 
revitalization of Independence Mall is a spectacular 
undertaking, and I could not say it better than the mayor did. 
But when your visit is concluded this morning, I am confident 
that you will agree that this effort is a win-win for the 
American people, for the Federal Government, for the 
Commonwealth of Pennsylvania, and the city of Philadelphia.
    The second point that I wanted to make that the mayor did 
is leverage. On this first phase of Independence Mall, only 
$3.5 million of $65\1/2\ million is being requested from the 
Federal Government. That is almost an 18-to-1 ratio of non-
Federal to Federal dollars, and I think that is just a 
sensational bang for the Federal dollars that are being 
requested.
    The third point I wanted to make is one of partnership. 
Over the years, I have helped put together a number of 
partnerships involving the public and private sectors, but this 
effort involving three levels of government and a range of 
private sector participants is to me the quintessential true 
public/private partnership.
    Just a little bit of background of Independence Mall. As 
the mayor said, it is three square blocks beginning just 
immediately out the doorstep of Independence Hall. It is 15\1/
2\ acres, and the mall was created in the 1950's and 1960's 
when the State and city demolished over 140 buildings to 
create--which was thought to be an appropriate setting for 
Independence Hall in a vibrant public space.
    As I know that you will see as we tour the mall that these 
aspirations have not been fulfilled. Independence Mall just is 
not working as it currently is. The pivotal second block is a 
virtual urban wasteland. The third block is lovely, parklike; 
but nobody uses it. And the first block has the Liberty Bell in 
a pavilion that nobody I know likes it; and if you stand on 
Market Street, it blocks your view of Independence Hall.
    So when over 1.6 million people every year--and that number 
by the way is growing--come to visit the hallowed ground where 
our democracy was created, they encounter Independence Mall. At 
best, it is a lost opportunity; and at worst, it is an 
embarrassment. But that is changing, and I would like to just 
point out just briefly some of the things that are happening.
    This is Independence Hall, and this is where the Liberty 
Bell Pavilion currently exists. That is going to come down; 
that is going to be demolished; and a brand new pavilion for 
the Liberty Bell is going to be created here; and it is going 
to have three parts. First, it is going to have a part where 
people who are waiting in line can line up in a covered area. 
Second, it will have an interpretive area where there will be 
exhibits and memorabilia and telling the story of the Liberty 
Bell. And third is a chamber for the Liberty Bell itself.
    Right now, there is a compressed situation; and one is not 
able to have that kind of experience; and there is no place for 
visitors to wait in line. So that is all going to be done. 
Various walls and barriers will be taken down that now prevent 
people from in the city to easily access this block. And as the 
mayor said, it will be a complete relandscaping of that block.
    On the second block over here across from Market Street 
will be the new Gateway Visitor Center, and I know I am a 
little biased here; but this is going to be the best visitor 
center in the country with friendly people, with informative 
visits and interactive technology. This visitor center is going 
to be a place that will inform. It will excite; and it will 
tell people about the wonders of the national historic park but 
also the surrounding historic district, the city, and the 
region.
    So we are very pumped up about the visitor center. In 
addition, there is a parking garage underneath the second 
block, 650 spaces. All of that will be renovated, but this is 
not an ordinary parking garage--or it will not be because one 
whole mall is going to be created, be connected, to the new 
visitor center so that when someone gets out of their car; they 
can look and be part of the whole experience.
    There will be murals and other exhibits, and then there 
will be a complete relandscaping with a cafe and various 
kiosks. Now, that from here on down is the first phase we are 
working on; and we have got of the $65.5 million we have a 
little bit less than $4 million; and we are confident that we 
are going to raise that from private donor sources.
    There is just one more element on the second block, and 
that is an Independence Park Institute, and this is going to be 
developed and devoted primarily to school children and 
youngsters. It is going to be an educational facility so that 
when they come here to visit the park, there will be exhibits 
and classrooms geared specifically to them. That does not now 
exist.
    And, of course, as the mayor pointed out right here on the 
third block is the capstone, the anchor of this entire effort. 
That would be the Constitution Center. Like I said, I think it 
is a spectacular project; and it is going to happen. Thank you.
    Senator Gorton. What goes beyond that? What is the one the 
furthest to the right?
    Mr. Pickman. This is a Park Service maintenance building.
    Senator Stevens. How about above that?

                           prepared statement

    Mr. Pickman. This--let me just say that this plan for the 
third block is preliminary, but right now that is a gathering 
space in a parklike setting. For now, that is what is 
designated as----
    Senator Stevens. And is the whole mall part of the 
Independence Park? What are the outlines?
    Mr. Pickman. The whole mall is part of the park, and then 
the park goes down. This way, in fact, we are right about here.
    Senator Gorton. Thank you.
    [The statement follows:]

                  Prepared Statement of James Pickman

    Good morning, Mr. Chairman. I thank you for the opportunity 
to testify on the creation of a truly spectacular public 
space--the revitalization of Independence Mall. The mall, which 
forms a part of Independence National Historical Park, is the 
focal point for millions of visitors to the Philadelphia 
region, a unique and memorable entryway to our nation's 
birthplace. For almost three years--first as a consultant to 
The Pew Charitable Trusts and now as the president of the 
Gateway Visitor Center Corporation--I have been honored to work 
with the leadership of the National Park Service, the City of 
Philadelphia, the Commonwealth of Pennsylvania, and numerous 
private sector partners to help transform ambitious aspirations 
for a rejuvenated mall into a tangible reality. And Mr. 
Chairman, we are well on our way.

                               background

    Independence National Historical Park (INHP), the home of 
the Liberty Bell and Independence Hall, is one of this nation's 
(indeed the world's) most important historic and cultural 
assets. This jewel in our crown offers visitors a truly 
profound experience, as over one and one-half million people 
come to the bell each year and walk across Chestnut Street to 
learn about how the world's greatest living democracy was 
created at Independence Hall.
    The birthplace of our nation at INHP sits at the threshold 
of the most historic square mile in America--a lively urban 
district with dozens of colonial buildings and other 
attractions, including Congress Hall, Carpenters' Hall--the 
site of this hearing, the United States Mint, the First and 
Second Banks of the United States, historic churches, the Betsy 
Ross House, Elfreth's Alley, the Atwater Kent, Maritime, Afro-
American and American-Jewish History Museums, colonial taverns 
and much more.
    This vibrant historic district is further encircled by 
other destination points, including the new Convention Center, 
South Street, Chinatown, Old City, the Delaware riverfront, 
Avenue of the Arts and more. Additional treasures lie beyond 
these: the world class Museum of Art, the largest urban park in 
the country, the biggest concentration of public gardens and 
arboreta in North America, and so on. Just beyond the city 
limits there is the region's brand new Aquarium, Valley Forge 
National Historical Park, Longwood Gardens, Chadds Ford, Lehigh 
Valley, the Brandywine River and more.
    Although Independence Park contains the most enduring of 
historical treasures, its existing visitor center is poorly 
located and is inadequate for accommodating and orienting 
significant numbers of people to the park and other city and 
regional attractions. There is clear consensus among the 
National Park Service, city and state officials, and other 
interested parties that a new visitor center needs to be 
constructed right on the mall--a location more accessible to 
the Liberty Bell and Independence Hall as well as to major 
travel arteries.
    The mall itself, which consists of over 15 acres on three 
large blocks just north of Independence Hall, was created 
through the demolition of over 140 buildings by the city and 
the Commonwealth of Pennsylvania in the 1950's and 1960's. 
While intended as a vibrant, open urban space to accommodate a 
range of special events and festive (as well as contemplative) 
uses, the mall has fallen into serious disrepair in recent 
years. The pivotal middle block has become an urban wasteland, 
while the northernmost block, despite its restful park-like 
setting, is hardly ever used. And the first block is well 
regarded, but only in comparison to its two sister blocks. To 
compound the problem, the 650-space parking garage under the 
second block requires significant renovation.
    Fortunately, the National Park Service has recently 
completed a comprehensive review of the future management and 
use of Independence Park. The resulting management plan, which 
received loud and clear public support, calls for a complete 
redoing of Independence Mall--a new and improved pavilion for 
the Liberty Bell; a new Gateway Visitor Center, which promises 
to be a magnificent orientation facility for the Park, the 
city, and the surrounding region; a renovated and enhanced 
underground parking garage; a new Independence Park Institute, 
an educational facility to serve primarily school children and 
senior citizens; and rejuvenation of the mall itself with a 
lovely outdoor cafe, kiosks, formal and informal seating areas 
and gathering spaces, and a park setting for viewing 
Independence Hall or simply playing and relaxing. And last, but 
certainly not least, is a new Constitution Center, the northern 
anchor directly across the mall from Independence Hall.

                             current status

    Through a planning process for the mall begun by Venturi, 
Scott Brown & Associates and continued by a multi-disciplinary 
team headed by the nationally renowned (and Philadelphia-based) 
landscape architect Laurie Olin, a spectacular vision for a 
revitalized mall has been articulated. A rendering of that plan 
is contained in your briefing packet. The entire planning 
process has been highly visible, generating significant media 
and widespread public attention. Suffice it to say, the Olin 
plan has been greeted enthusiastically by the design community 
and the general public.
    To begin the revitalization effort, we have defined a first 
phase of work that would include most of block 2 and all of 
block 1. Its major components consist of the new complex for 
the Liberty Bell, the Gateway Visitor Center, a renovated and 
enhanced underground parking garage, an open air cafe, and 
complete re-landscaping. The latter includes pathways and 
arborways, formal and informal seating areas, new lighting, and 
tasteful and user friendly signage.
    The total cost for the first phase is estimated at about 
$65.6 million. Of this amount, we currently have $61.8 million 
firmly committed or anticipated. Major funding partners to date 
include the Pew Charitable Trusts, the Annenberg Foundation, 
the city, and the commonwealth, which have each committed $10 
million; the Philadelphia Parking Authority, and several 
private foundations. The National Park Service is seeking $3.5 
million in the proposed fiscal year 1999 budget, which would 
bring the total to $61.8 million. Requests are pending from 
private sector sources for the $3.8 million balance.
    With the bulk of the funding for phase one in place, 
planning and design work is moving forward, with construction 
on the parking garage slated to commence this summer and all 
other components to begin next year. Completion of this phase 
is targeted for late 2000.
    Subsequent phases of work--which we expect will be launched 
imminently--include the Independence Park Institute which will 
complete the work on block 2, and the Constitution Center, the 
centerpiece of block 3 and the capstone for this wonderful 
public space.
    Thank you.
STATEMENT OF JOSEPH M. TORSELLA, PRESIDENT, NATIONAL 
            CONSTITUTION CENTER
    Senator Gorton. Mr. Torsella.
    Mr. Torsella. Good morning. Mr. Chairman, Senators, it is a 
great honor for me personally in representing the National 
Constitution Center to testify here today; and I thank you for 
that; and we thank you for the extraordinary step you've taken 
in coming to Philadelphia to hear more about this project.
    You have heard from the mayor about why we believe we need 
a National Constitution Center, and you have heard from Jim 
Pickman about the overall context for the mall project. My job 
is to tell you a little bit more about the building itself, the 
National--the proposed Constitution Center. The main vehicle, 
with your permission, that I am going to use to do that is an 
8-minute video we have developed titled, ``Imagine a Place'' 
which is designed to take the viewer on a tour of this place 
that exists for now, and hopefully not for long, in our 
imagination.
    As you will hear, it is narrated by President Bush, James 
Earl Jones, and Andrea Mitchell. And I trust you will agree 
with me that they can do a better job than I at articulating 
what we hope to accomplish. But let me make three brief 
introductory comments to this video.
    First, some details about the building itself, the physical 
space. As it is currently planned, the Constitution Center 
would be 132,000 square foot facility. We conservatively 
estimate that we will see 1 million visitors a year and hope to 
do better, more on the order of 11\1/2\ million.
    As the mayor said, the total budget for the project which 
includes an endowment designed to defray the cost of the 
mission includes all the detailed exhibit planning and so forth 
is $130 million. And we plan to break ground on Constitution 
Day, September 17, in the year 2000 and to open to the public 2 
years later.
    Second, I want to tell you a little bit about the people 
behind the building. The plans that you are about to see have 
been created by the very best minds in the museum business in 
America. And I am not including myself in that category. Our 
exhibit--our preliminary exhibit designs were done by Apple--
Ralph Applebaum Associates, the firm--the award-winning firm 
that designed the exhibits for the Holocaust Museum.
    Our architectural and physical space planning have been 
overseen by the distinguished dean of the University of 
Pennsylvania's School of Fine Arts and Architecture, Dr. Gary 
Hack. And the interpretive meat of this was developed by a blue 
ribbon panel of Pulitzer prize winning historians and other 
scholars of the Constitution over about 1 year or so.
    And third--my third and final point is that we use the 
words ``building'' and ``museum,'' and we use those only 
because we cannot think of the appropriate word to describe 
what we are talking about. Those are inadequate words. What you 
will see, and hopefully as you will see, everything about the 
visitor experience at this place is designed to be different 
than a typical museum, the way we typically think of a museum.
    This will be true from the very beginning when the visitor 
walks in and is asked not to be a passive visitor, but to 
become an active delegate and is given a delegate's pass to 
emphasize to them the active nature of the participation that 
we are seeking from them until the very end when they are asked 
literally to use a laser pen and sign a copy of the 
Constitution affirming their citizenship.
    All of what happens in this place is designed to reinforce 
the theme that the Founders cast in the starring role in our 
democracy, the citizen, the informed citizen. At the heart of 
the Constitution Center, there are six different exhibits and 
activity zones where delegates can explore as deeply as they 
care to based on their interest or knowledge. One-half of these 
relate to the Constitution as it affects individuals, but the 
other half relate to the Constitution as it affects the Nation 
and the national structures it creates for us, which is where 
too many Americans often do not have a complete understanding.
    And each of these zones communicates a core idea about the 
Constitution. One example that I will give and you will see 
more of the zone titled, ``The More Perfect Union States a 
Nation'' tells a story of federalism. And it tells the chapters 
that we may know about it that occurred in the past, like the 
Civil War; but it also tells about the chapters that are 
occurring even today, like the current debate over Federal 
mandates in the context of the 10th amendment.
    And it emphasizes to visitors that they can have a part, 
and they should have a part, in writing how all these stories 
turn out. But the exhibits, the visitor exhibits, are only one-
half of the story of what is happening here. The other half of 
this place is devoted to reaching all Americans as best we can, 
even those who cannot journey physically to Philadelphia to see 
it. Through a virtual museum which will put the exhibits 
online, through national broadcast program that will originate 
in studios at the center, through programming like the mayor 
mentioned for students and teachers and through sponsorship of 
debates on all kinds of constitutional questions, we hope to 
reach many more than the 1 million visitors we expect to hear.
    In short, we are asking you to help create a museum; but we 
are hoping to do much more than that. We are hoping to create 
an institution that can have significant and positive impact on 
our culture. With your permission now, I would like to show the 
video. There are two televisions there for the Senators, and 
there is one here for the audience.

                           prepared statement

    Mr. Rendell. While we are setting up the video, Joe 
mentioned President Bush, and you will hear him in a moment, 
but President Bush, President Carter, President Ford, and 
President Reagan all agreed to be the four honorary cochairmen 
of the National Constitution Center.
    [The statement follows:]

                Prepared Statement of Joseph M. Torsella

    Good morning, Mr. Chairman and senators. It is an honor to 
testify today before this committee, and all of us involved in 
this project thank you for your interest, and for the 
extraordinary step you have taken of traveling to Philadelphia 
to learn more.
    You have heard today of why we need a Constitution Center, 
and of the larger context for this project. My job is to tell 
you a bit more about the proposed center itself. With your 
permission, I will do that mainly by screening for you an 8-
minute video, titled ``Imagine a Place.'' We developed this 
video to take the viewer on a sort of virtual tour of a place 
that exists--for now--in our imaginations. It will describe for 
you, much better than my words could, what we hope to 
accomplish at this place. Like all plans, ours will certainly 
change and become more detailed as we get closer to our goal. 
But the broad strokes of the visitor experience will ultimately 
be those you are about to see.
    Before we begin, a few brief comments are in order to set 
the stage.
    First, the building itself. The proposed Constitution 
Center will be 132,000 square feet. We conservatively estimate 
that 1 million visitors a year will pass through its doors. The 
total capital budget for the project is $130 million, which 
includes detailed planning and design, building and exhibit 
construction, contingency funds, and an endowment to defray the 
cost of admission and support its future operating budget. We 
plan to break ground on Constitution Day--September 17--in the 
year 2000, and open to the public 2 years later.
    Second, you should know something about the people behind 
the building. Our preliminary plans have been developed by the 
best minds in the museum business in America. Ralph Applebaum, 
the award-winning designer of the Holocaust Museum in 
Washington, has created the preliminary exhibit designs. Dr. 
Gary Hack, Dean of the Graduate School of Fine Arts at the 
University of Pennsylvania, serves as our senior architectural 
and planning advisor. And the interpretive themes have been 
guided by a blue-ribbon panel of historians and other scholars 
from around the country.
    Finally, although we call this place a ``building'' or a 
``museum,'' I want to emphasize that it is really much more 
than either of these words suggest. As you will see, the 
visitor experience will be worlds apart from a typical museum 
tour. It will interactive, engaging, educational, and 
entertaining. And the experience of the one million physical 
visitors is only part of what will happen at the Center. What 
happens behind the scenes will reach many millions more. There, 
an online ``virtual museum'' will let a third grader in Alaska 
visit the Constitution Center, even if he can't come to 
Philadelphia. A schoolteacher in Paris--Texas or France--can 
get free curricula and lesson plans on the Constitution. And a 
senior citizen in Seattle can watch a televised debate on the 
latest proposal for a constitutional amendment. One speaker 
might be a presidential candidate. The other might be president 
of her senior class.
    In short, we hope that the Constitution Center will be a 
sort of headquarters for spreading a message across our 
culture, as great institutions can: that each of us has a vital 
role to play in ensuring that the hard-won freedoms embedded in 
our Constitution are passed along intact to the next 
generation. Whoever our visitors are, however they arrive, we 
want them to leave as citizens.
    Ultimately that's what the Constitution Center is all 
about. There is a wonderful story that at the end of the 
Constitutional Convention, Benjamin Franklin was leaving 
Independence Hall and was asked by a Philadelphia woman what 
sort of government the founders had given America. Franklin 
replied: ``A republic, Madam * * * if you can keep it.'' In 
asking you today to support our request for federal funding to 
build the Constitution Center, we are not asking you to support 
a building.
    We are asking you to create an institution--whose home will 
be just a few steps from where Franklin spoke those words--that 
will help Americans learn how to ``keep'' our precious republic 
for generations to come.
    Thank you.
STATEMENT OF DR. JUDITH RODIN, PRESIDENT, UNIVERSITY OF 
            PENNSYLVANIA
    Senator Gorton. Dr. Rodin.
    Dr. Rodin. Good morning. Mr. Chairman, Senators, I am 
delighted to be before you on behalf of the University of 
Pennsylvania, the academic partner of the National Constitution 
Center. Perhaps it is important to begin by reminding us that 
the Constitution is our guardian, but it is our obligation as 
citizens to protect it. And certainly, we in higher education 
have a responsibility to help our people understand that 
responsibility; and therefore, it is our great honor and 
privilege to be the academic partner of this initiative.
    Perhaps I can begin with a story. I have a colleague who is 
a professor of political science and law at the university, and 
she participated in the drafting of the Hungarian Constitution 
and has been spending a great deal of time in Hungary working 
with the new constitutional court in developing their 
procedures. She comes back from every visit talking about how 
shopkeepers and taxi drivers and people in restaurants debate 
every tenet of the Constitution, that it is the major topic of 
conversation among the general populace in Hungary.
    Now, perhaps those who have not had these freedoms very 
long really do understand and appreciate them to a greater 
extent; and perhaps those who have lived in totalitarian 
societies appreciate and understand the importance and value of 
a document like the Constitution. While we do not have to reach 
that point, we are very fortunate in the United States to be 
free and democratic; but our people do need to understand 
better and appreciate the bedrock of our freedoms.
    The mayor told you about the Constitution Center poll, and 
the relatively limited, the dispiriting, I think, amount of 
knowledge that Americans have about the Constitution. And yet, 
Americans in their gut understand what the Constitution is and 
what it does and what it means to them. I think we need a 
little more of it in the head as well; and as an educator, I am 
hoping that we can create that and create in our public the 
same kind of impassioned constitutional awareness that is 
characteristic in Hungary and, of course, was characteristic of 
our forefathers and their fellow citizens. We need to restore 
it in America today, and we believe that the National 
Constitution Center can help to do that.
    We are very eager to move forward in our partnership with 
the National Constitution Center, and perhaps it is a great 
advantage that this project did not begin 10 or 15 years ago. 
10 or 15 years ago, we created very different kinds of museums; 
and you have seen the reluctance here to use the word museum 
on--even though that is, of course, partly what it is because 
museums tend to be static enterprises. And we are talking about 
an educational enterprise that is dynamic and interactive and 
changing and really will captivate the American public from the 
general school child to the senior citizen in a very 
imaginative, and we think, new way and perhaps will help to 
define new kinds of museums in America that really will lead us 
into the 21st century very creatively.
    What is Penn doing? We have developed American and 
comparative democratic institutions as a university wide 
academic priority for the next 5 years in a strategic planning 
process that developed only six. Across the university 
priorities, this is a major one in which the university will be 
investing, course work, faculty, visitor centers, a great deal 
of scholarship around the issue of American and comparative 
democratic and legal institutions.
    You may know that the University of Pennsylvania is 
America's first university founded in the city of Philadelphia, 
the birthplace of American democracy. We would like to 
celebrate that collaboration from the beginning of the founding 
of our country; and certainly, thinking and working on the 
Constitution is a very significant way to do that.
    Penn history professor, Richard Beeman who is an expert on 
the American Revolution and early American history has spent 
this past year as the Constitution Center first visiting 
scholar and was quite instrumental in developing the initial 
material that will go into the Constitution Center's displays. 
Mr. Torsella mentioned that Dean Gary Hack who is the dean of 
the University of Pennsylvania's Graduate School of Fine Arts 
is helping to design the center's planned interactive museum, 
and he has been a consultant on much of the urban design aspect 
of the laying out of these three blocks.
    Penn has been working with the center on setting up an 
extraordinary interactive website; and I hope that you will, 
those of you who are comfortable with web technology, take a 
look at it because it is very fresh; it is creative; and we 
change it about once a month. And we have invested at the 
university in the development and maintenance of this website.
    Finally and importantly, our law school has established a 
new constitutional law journal, Senator Specter's alma mater. 
So I hope that we will please you with that, Senator Specter. 
It will plum the depths of a variety of constitutional issues 
in a very significant and meaningful way.

                           prepared statement

    Certainly, education is Penn's mission. It is our great 
strength, and we are committed to the educational component of 
the National Constitution Center. We think it is critical, and 
we hope you will be enthusiastic about the notion that a 
leading American university will play an ongoing role in 
keeping this material fresh and making it exciting and in 
contributing to the educational opportunities of our great 
populace in understanding the Constitution.
    We are very grateful for your support of the center. Thank 
you.
    [The statement follows:]
                 Prepared Statement of Dr. Judith Rodin
    I am very pleased to be here today as the President of the 
University of Pennsylvania, the academic partner of the National 
Constitution Center. And I am pleased to be testifying about the 
Center's importance as both guardian and promoter of our constitutional 
awareness.
    Our Constitution protects us; we must protect the Constitution. 
This message of mutuality sounds almost trite, yet it is profoundly 
important. And it is the mission of the National Constitution Center to 
make sure we do not forget it.
    Each of us, as an American citizen, must appreciate the obligation 
we share to guard and protect our Constitution against any and all 
threats. If we fail in this obligation, then the Constitution will 
surely yield to assault and grow too weak to protect us when we may 
need it most.
    To protect the Constitution, we must know and understand it. We 
must learn its central provisions, appreciate the specific freedoms it 
guarantees, be alert to all that we must fight to defend. I believe 
most Americans may have a kind of gut-level understanding that:
  --We may say what we like, with very few exceptions;
  --We may go to any church we like, or to no church;
  --The police may not break into our homes without a very good reason;
  --We have a right to a lawyer if we're accused of a crime; and
  --Our property is our property.
    The problem is that ``gut knowledge'' about these freedoms is 
unlikely to secure their permanence. Unless we know the bedrock of our 
freedoms, unless we are certain of their source, their foundation--then 
we may not notice when a thief in the night tries to steal them away.
    Last year the Mayor invited me to join him during Constitution Week 
at a press conference publicizing a poll taken by the Constitution 
Center. At the time, a colleague of mine, a professor in Penn's Law 
School, had just spent a year in Hungary working with that nation's new 
Constitutional Court. As I said then, I was captivated by her account 
of Hungarian taxi drivers and shopkeepers debating provisions of that 
country's new constitution with great knowledge and passion. They 
memorized its provisions and were hungry to understand them in all 
their depth--because they had seen, in their lifetimes, how freedoms 
can vanish like the wind from an inattentive populace.
    This is the same kind of impassioned constitutional interest that 
was characteristic of our founding fathers and their fellow citizens. 
We need to restore it in America today, and the National Constitution 
Center will help do that.
    The University of Pennsylvania is eager to do all it can in its 
partnership with the National Constitution Center. Among other things:
  --Penn has made the study of American and Comparative Democratic 
        Institutions a University-wide academic priority for the next 
        five years;
  --Penn history professor Rick Beeman--an expert on the Revolution and 
        early American history--has spent the past year as the 
        Constitution Center's first visiting scholar;
  --Dean Gary Hack of our Graduate School of Fine Arts is helping 
        design the Center's planned interactive museum here in 
        Philadelphia;
  --Penn has worked with the Center in setting up its exciting new 
        user-friendly website; and
  --At the scholarly level, our Law School has established a new 
        Constitutional Law Journal that will plumb the depths of a 
        variety of constitutional issues.
    Education is Penn's mission and our great strength. Through these 
and other efforts Penn will work with the National Constitution Center 
to reinvigorate the education of Americans about their most valuable 
national asset. We look forward to the challenge. And we will be very 
grateful for your support of the Center.

                              partnership

    Senator Gorton. Mr. Mayor, in developing this request for a 
partnership from the Congress, did your group have any 
precedents? Can you tell us when we have previously financed a 
significant capital investment, not for the National Park 
Service itself, but for a State or locally owned and operated 
facility; or are you asking us to set a precedent?
    Mr. Rendell. No; I think the two that I mentioned--I do not 
know that Jim or Joe or Dr. Rodin would have any additional, 
but certainly, and this is a very appropriate Federal spending, 
but the commitment that the Federal Government made to the 
Holocaust Museum, for example, was significant. Steamtown----
    Senator Gorton. That is a national park.
    Mr. Rendell. This will be part of a national park. It will 
just be a nonprofit institution that runs the center, and one 
of the things we tried to do being cognizant of the fact that 
operating funds are difficult because there are so many aspects 
of the national parks that are always coming to you for 
operating funds and so many different requests.
    I happened to testify before Congressman Regula's 
committee, and it was a day when every group had 5 minutes. I 
sat for about an hour listening to the Congressmen go through a 
ton of groups, and it became clear to me that this was a burden 
that we had to assume, the Commonwealth, the city, and the 
private sector assume and not lay on the Park Service itself. 
But certainly, this is a cooperative effort with the Park 
Service. This is going to be a part of Independence National 
Historic Park. It is not going to be a separate entity. It is 
on land that will be part of, and probably sometime this year 
will become formally part of the Federal Government's federally 
owned property.
    And so I think in that sense, it is every bit as much of a 
part of a national park as anything else.
    Senator Gorton. Jim, why do not you describe the conceptual 
process. How was this idea arrived at, and who was involved in 
it? And in its ideal, would it have been even larger? Have you 
reduced it, and has it been reduced further in size and cost? 
How did we get to exactly where you are?
    Mr. Rendell. Let me take the first crack at that. 
Obviously, from the Federal mandate that was in the 1988 
legislation, the people who ran the Constitution Center at that 
point always had that in the back of their mind. The reason 
that it never moved to where we are today is because we were 
looking for a home; and to us for the very reason of the first 
question you asked, that home had to be on Independence 
National Historic Park. The mandate says on or near, but we 
wanted it to be on official national parkland, and so we fought 
very hard to be in the GMP to be given this location.
    And, in fact, as I said, it is manifested in our 
cooperative effort with the Park Service that they not only 
placed us in the GMP but gave us such a central part of what we 
did. And as far as the museum itself, since Mr. Torsella and I 
have been president and chairman, we have scaled down the idea. 
We scaled down the idea dramatically, and he can comment on 
exactly how much because we thought that this amount of money 
was more than sufficient to do what we wanted to do. Because 
this is not going to be a museum with grand exhibits in size, 
hopefully, the exhibits will stimulate the through processes; 
but we did not think we needed a grand museum.
    Joe, why do not you comment?
    Mr. Torsella. Senator, one original set of plans proposal 
for the museum about 3 years ago had a significantly greater 
size by fair multiple, 200,000 square feet and a more extensive 
layout on the mall. And we are presenting to you today, the 
sort of neat outcome of a couple years of fairly laborious and 
at times contentious, but ultimately very fruitful processes.
    One was the GMP plan for the mall where there was a great 
deal of give and take between the Park Service and the 
Constitution Center and all the other stakeholders about what 
was the most realistic and what would work for everybody. In 
terms of the interpretive side of this, we went back to the 
drawing boards with the museum consultants and professionals as 
well as with the scholars and did, as the mayor said, come up, 
we think, a much more realistic and scaled back version, 
although one that will still be meaningful.
    Senator Gorton. One more question, and then I want to turn 
it over to Mr. Mayor. Assuming that this takes place, do you 
have any specific plans--do you have any plans for the 
surrounding non Park Service area in the immediate vicinity of 
this new facility or up and down the mall?
    Mr. Rendell. The surrounding area to the direct west of the 
mall is the Federal Courthouse and the Federal Building where 
Senator Specter and Senator Santorum have an office and where 
the courthouse is. And to the east of the mall, we have a 
wonderful--one of the earliest training centers in the country, 
the Bourse which has been rebuilt into really a center for 
visitors with all sorts of food and shopping opportunities.
    And to the north--I am sorry to the south of the mall 
itself is a greater part of the Independence National Park. 
Independence Square which is in back of Independence Hall which 
is part of the park, then directly adjacent to that is 
Washington Square Park which is being renovated now where over 
2,000--maybe 2,500--colonial soldiers are buried, and it is a 
wonderful park with an incredible flame.
    And then to either side of the mall itself are Congress 
Hall, Carpenter's Hall where we are. So----
    Senator Gorton. So you have no further redevelopment plans 
for the area surrounding the park?
    Mr. Rendell. The surrounding area other than the Park 
Service is maintenance requests and redevelopment, I think, is 
a good area itself. We have one other project which we are not 
seeking Federal funds for which is by and large funded by the 
city and private sources is to develop a 3\1/2\ block walking 
sound and light show with all the great--latest technology 
going through IHP and the story that is told on the headset is 
the story of how we became an independent nation from the time 
the First Continental Congress met here in August 1774 until 
July, actually, 8th of 1776 when the Declaration was read to 
the people of America for the first time.
    And it is truly an amazing story because as you will recall 
in August 1774 the people, the men, who assembled here were the 
landed gentry of the Colonies were the people that had--were 
the establishment who 98 percent of had no interest in breaking 
from England. In many ways, it was just an issue of tax reform 
at that point. And in less than 2 years right here in 
Philadelphia, they undertook an incredible metamorphosis.
    I know ``Miracle of Philadelphia'' is written about the 
Constitution and the Constitutional Convention, but it was a 
true miracle that events that happened here and around the 
Colonies took those men from part of the establishment who had 
no thought of breaking with England; and in less than 2 years 
on the Fourth of July, they signed their names to a document 
that was their death warrant.
    And we are going to tell that story through this incredible 
sound and light show. But that is, again, financed by the city 
and private donations.
    Senator Gorton. Senator Stevens.
    Senator Stevens. Well, Mr. Mayor, I think one of the 
problems we have--and I have not talked to them yet myself. We 
will undoubtedly have a hearing, I assume, in Washington on it; 
but I am told the Park Service is not in line with this, does 
not endorse this facility. The size of it they have objected 
to. The Park Service opposes the 600 underground garage, I am 
told. They have objections because the budget of the NCC does 
not include funding for the multipurpose storage project that 
they had envisioned, and that they are concerned outside of the 
mall to develop hotels in the vicinity of the park.
    And we are told that we can expect strong opposition from 
the Park Service when we do have a hearing. I have not talked 
to Chairman Regula yet, but we are told that the House 
subcommittee currently is on record as opposing the project. 
Now, we are all very impressed I have got to tell you, or we 
would not be here. But I do think that we have to be direct in 
not raising undue expectations as far as process and a timing 
for congressional action on this.
    This is going to be a very difficult year for us in terms 
of the appropriations process. We discussed that a little bit 
last night, but we currently have appropriated $48.8 million 
for the Federal portion of this project since 1994. There are 
currently $104 million in projects that the Park Service has 
outlined it would like to consider, but we have not as yet 
either authorized or appropriated any of those funds.
    In other words, it is a tortuous path you are on; and I 
hope that we keep in mind that. I just asked one question. You 
have cited the Holocaust Museum. When we had the hearings on 
the Holocaust Museum, which we all supported very strongly, we 
were told there would never be any Federal funds requested for 
that project. We now have a request; and as you mentioned, it 
is roughly $32 million a year.
    On this project, this is still going to be Federal land. I 
assume there is going to be Federal employees, security guards 
or otherwise. I want you to again tell me how can you make the 
statement that there would be no Federal operating expenses for 
the NCC.
    Mr. Rendell. You raised a ton of issues there. No. 1, we 
have a gentleman here from the Park Service; and I do not mean 
to put him on the spot from Director Rust's office; and they 
are supportive of the plan. It is included in their GMP which 
has been published and as a result of 2 years worth of hearings 
and research. So they are very supportive of the plan.
    The plan does include the renovation of the garage. And 
they knew that, and that is part of the plan. And again----
    Senator Gorton. The garage exists now?
    Mr. Rendell. Excuse me?
    Senator Gorton. The garage exists now?
    Mr. Rendell. Oh, yes; Oh, yes; And there had been some talk 
about a garage underground on the third block, but that is not 
part of the GMP. The garage under the second block, the 
renovations and improvement of that, are very much a part of 
the GMP that has been approved by the Park Service.
    So I do not know where you got the first part of your 
information. As to the building of the maintenance building, 
Mr. Torsella informs me we have agreed to undertake that 
construction cost for the Park Service. So again, whoever told 
you about that is either got dated information or is just flat 
out incorrect.
    And as far as hotels, whether or not there are hotels in 
the surrounding area--and I do not know of any current 
expansion for a hotel--there are 13 new hotels under 
construction in the city of Philadelphia right now. But none of 
them--I think the closest to the mall is about 3 or 4, 3\1/2\ 
blocks away at about 9th and Arch Street. So again, there has 
been talk about a hotel. The newspaper is agitated about a 
hotel at the back of the third block.
    Of course, if that happened, that would be a money 
generator for the mall; but that is not included in the GMP and 
would not be eligible to be included. You would have to go 
through a whole new GMP process.
    And as far as the last question that Senator Stevens asked, 
as far as the maintenance question, it is our intent between 
the Endowment and the admissions charge to cover all of those 
costs; and whether it would be Federal employees who would do 
the maintenance or whether it would be private employees who do 
the maintenance, if it is Federal employees, they will be 
reimbursed, plain and simple as that. They will be reimbursed 
from the Endowment and the admission charge, but it may well be 
private employees. We have not decided that. We have not 
discussed that with the Park Service.
    But again, I am stunned to hear that there is opposition 
from the Park Service. Again, they made it part of the GMP; and 
they have been very supportive. Again, there is a gentleman 
here from Director Rust's office; and he might want to speak to 
those issues.
    Joe, do you want to----
    Mr. Torsella. Senator, I just want to add on the operating 
budget question. One of the differences that may not have been 
clear going through the plan is that the Constitution Center 
will be the only attraction on the block charging an admission 
price. Now, we hope to keep it as modest as possible through an 
Endowment; but because we are the only one charging, we feel we 
are comfortable saying that we are not going to be coming back 
to you for operating support.
    Now, that does not mean that we are going to, as of today, 
that we are done looking for funds. It means, we are not 
looking for them from the Federal Government. Good museums 
continually develop new programing and find support and 
corporate sponsorships and national membership campaigns, in 
philanthropic and foundation support. And we will continue to 
do that through the life of the center, I am sure.
    But our preliminary plans develop by the museum consultants 
have identified between $10 and $12 million in operating 
revenues at this stage from things that are integral to the 
design concessions that we let out, from the admissions, from 
the Endowment to income and so forth. We have set out to design 
this building--and maybe this is how it is different from some 
other institutions, we have set out to design this building 
informed by what has been a clear concern from Congress and 
from the Park Service that Congress in the past has been 
disappointed when an institution has come back to it and said, 
we now need you to rescue us from our operating situation.
    So we have been very careful from the beginning to build 
things into the design that will make our operating budget 
easier. The Senator mentioned a proposed parking garage. At one 
point, we had proposed, for example, in addition to the 
existing garage, we had also proposed a garage under the 
Constitution Center because museum consultants advised us that 
was a way of generating operating revenue and securing the 
future of the operating budget. And it impacted on visitorship 
statistics, also in a positive way in the operating budget.
    We had proposed that. The Park Service has indicated they 
object to that. That is not in the plan presented as the GMP.
    Mr. Rendell. In fact, in terms of--we do take the mandate 
of self-sufficiency very, very seriously which is why we did 
not just stop at what we need to build a center. We are looking 
for an Endowment; and, in fact, I have been trying to see if 
Bill Gates--and maybe Senator Gorton could help me get an 
appointment--[Laughter.]
    I thought this would be a great project at this time in 
Microsoft's corporate history for them to become involved in.
    Senator Gorton. Senator Domenici.
    Senator Domenici. Maybe he can go see Senator Hatch about 
Microsoft. [Laughter.]
    Let me just tell you an interesting story. This is perhaps 
as much for the academician, the distinguished president. In 
the city of Albuquerque about 3 weeks ago, I was invited to a 
nonprofit corporation headquarters and manufacturing center 
called Hands On Learning. Twelve school teachers 5 years ago 
decided that what was needed to teach kids in areas where they 
just were not getting ahead in America was to design 
educational kits, different kinds of physical hands on kits, 
used as lesson plans. Now, it is an educational piece, a 
document.
    For instance, one of them was a big, deep tub which had a 
lot of dirt and peat moss; and there were five different kinds 
of worms and the like growing in it. They literally sold those 
all over America. They are pretty heavy, but the teacher could 
teach 2\1/2\ months of biology and other things from that, and 
there were a lot of different kinds of kits.
    I asked them why they had to do all this, and incidentally, 
they are having great success. They have not taken a penny of 
Federal money in 4 years. They are self-supporting. They sell 
their product. I asked them, why do you have to do this? Two 
teachers run it now. They said, well because we do not always 
have teachers who are experts in the subject matter that kids 
are supposed to learn; and second, children need new ways to 
apply concepts to learn; and they have to be something hands on 
and touchable.
    I was absolutely amazed at the kinds of things they 
produced. They are now going to produce an art kit to teach 
fourth, fifth, and sixth grade kids art. It is all coming out 
of this little nonprofit group.
    Now, having said that, let me say I am not sure when I 
return to Washington and study up on this to go to our Interior 
meetings, I am not sure that I am going to be as impressed with 
how many Americans you are going to convert to people who 
understand our Constitution in the classrooms of America. I am 
not sure I have heard as innovative approaches to disseminating 
this information far and wide as I am hearing about people 
coming here and getting exposed to the Constitution.
    I think there is no question that on the letter you will 
impact for that day. What I think you need to convince us of is 
that you are going to have a much bigger impact than that. I am 
not saying that is critical to your funding, but I think it is 
very important if we are going to be saying up there that we 
are now funding a project--I do not know that we will call it--
a museum--in the city of Philadelphia where our freedom comes 
from, the origins of our great freedoms, that it has a broad 
impact. I am not sure that we should be funding it solely on 
the basis that it will do a great job in the context that 
people come here.
    If it has some impact beyond that, I think it would be 
interesting. I would ask whether the University of Pennsylvania 
might submit to us for the record through your various experts 
where else within the academicians of America and teacher 
training parts of America's higher education where other events 
are occurring that are trying to disseminate information about 
better teaching of the Constitution and our freedoms? I do not 
think that we ought to be misled--and I am not saying that we 
are--but there may already be some very vital and important 
efforts on how we teach our kids about the Constitution. I 
think we ought to know about that, if there are.
    Dr. Rodin. We would be happy to do that kind of survey and 
provide it. We view the website as one mechanism to bring it 
outside of Philadelphia; and as we all know although that is 
not classroom learning in the traditional way or in the very 
innovative way actually that you characterized, it is now a 
mechanism that is not only being used in a person's home, but 
teachers are using the websites in the classroom as an 
opportunity to find and utilize the most up to date 
information.
    Penn has a graduate school of education; and up to this 
point, it has been our American historians, our law professors, 
and our city planners who have been most involved; but I think 
that our faculty would take in the graduate school of education 
would take it as a wonderful opportunity to challenge the 
creating of----
    Senator Domenici. Might you try to supply for the record 
information on some institutions around the country that might 
be doing this? My last two observations are quick. Just so that 
you will not think that we are overstating the case of how hard 
it is to find $65 million even over 3 years, I want to state 
for the record so everybody in Philadelphia will know that the 
domestic budget of the United States, the entirety of the 
domestic programs, will be frozen for all intents and purposes 
this year versus last year.
    Essentially for 2 more years after that, they will be 
practically frozen. Now, that is the result of the 5-year 
budget agreement that many said did not do anything--we did not 
curtail the Government enough. Well, we are telling you right 
now that our Congressional Budget Office says, we have ordered 
a freeze for the next year and almost a freeze for the next 
year
    So it is not easy to find new money. The President has 
canceled a lot of programs to find some of his new money, and 
it might not surprise you that we do not agree with some of the 
cancellations. We also agree that we ought to spend some new 
money some different places than he, but that is pretty tough 
and pretty binding.
    My last observation is that I surely do not want to leave 
the impression that because New Mexico has 400 years of history 
of the Hispanic colonization of the United States that I do not 
understand that our premier and most positive document 
regarding freedom and the reason we are a powerful Nation is 
our Constitution and the Bill of Rights. There is no question 
about it. I have come to the conclusion that our prosperity is 
predicated almost exclusively on the amount of freedom we 
permit each individual in America to have, and the more who 
have freedom the more achievement there is because achievement 
comes when people are free.
    The more who are free, the more achievement, and that is 
probably America today. So if our kids do not know it and do 
not understand it, then we ought to get busy trying to make 
sure they do.
    Mr. Rendell. Senator, can I just comment very briefly on 
the first part of what you said? And I do appreciate the 
funding problem because I deal with this on a host of other 
issues, as you can imagine; but let me address the first point. 
I do not know if you are--I am about 10 years too old to have 
been part of the computer revolution. So it is difficult for me 
to think of--when I think of hands on, I think of worms. I do 
not think of sitting in front of that little box, but my son 
who is 17, to him, that is all hands on is.
    And one of the things that I think is going to be truly 
remarkable--and we may have sloughed over it in our 
presentation and on the tape--is the virtual reality center 
that is going to be available on the Net. And I believe 20 
years from now, hopefully, American schools at every level, 
elementary, middle, secondary kids will be able to go into 
classrooms where there are computers for each and every one of 
them; and they will be able to visit the National Constitution 
Center here in Philadelphia without leaving Des Moines, IA.
    Then they will be able to have the same hands on 
experience, and they will be able to plug in questions about 
what they are seeing and get answers back from the website. So 
I think that is the hands on experience of the 21st century, 
different than you and I had when we were growing up; but I 
think that is the hands on experience. And I agree without the 
academic portion of this, without the website, without--this 
would be in part a great museum and a great experience, but it 
would not be able to fulfill the widespread goal that all of us 
would like to see it fulfill.
    Senator Gorton. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. We have to move 
on so I will just take a minute or two. I compliment you, Mayor 
Rendell, for organizing this program and for keeping the lines 
hot between your office and Senator Santorum and me. I have a 
red phone on my desk. It is Rendell calling. If it is not 
Cavern and the navy yard, or housing, or education, it is 
something.
    But you have been the beneficiary today of an extraordinary 
event, a field hearing. And the biggest advantage to you is 
that you have seen in a very thoughtful way concerns raised 
which you are now in a position to respond to. You do not get 
that luxury very often. Ordinarily, you get a subcommittee 
hearing, and the chairman is there, and Senator Domenici may 
come. But they are very busy.
    I would ask you to take a look at the issue raised by 
Senator Gorton on the structure. You have a 501(c)(3). It may 
be magnificent; but if it is unprecedented, a lot of people in 
the Congress are going to raise their eyebrows and say, why. 
And maybe the structure can be accommodated within the National 
Park Service. I do not know now, but that is something that I 
would ask for your consideration on.
    The point that Senator Domenici emphasizes is one we talked 
about last night at dinner. And that is, what kind of outreach 
will you have? This is a great program for Pennsylvania and 
Philadelphia, but there are 49 other States. And the other 
Senators are going to say, why? And if you have a program of 
outreach, I do not know what it would be, can send or how you 
contact other States or how you contact schools and inspire 
them to study away from the Constitution Center or maybe to 
come here. That would be important.
    And privately, I will identify for you the other members of 
Senator Gorton's subcommittee and the other members of the 
Appropriation Committee, people who will be helping to make the 
decision.
    On the locale, I think it is important to add to the plan 
that Christ Church, a very old church, is in the environs; the 
Mickva Israel, the second oldest synagogue right on the square 
so that there are tremendous historical adjacencies so to 
speak. And then there is the National Park Service, and you 
want to get that cleared up and as positive as fast you can, 
and there is Chairman Regula. Some of us will work on him.
    But you have had a great opportunity to find the questions 
here. You do not get that very often. And knowing you, you will 
find the answers; and then the rest of us will help you. Thank 
you.
    Senator Gorton. Senator Santorum.
    Senator Santorum. Senator Specter commented on all the 
points I wanted to make, however, I want to reemphasize the 
last point he made in regards to the National Park Service. 
Having worked extensively with the National Park Service in 
Gettysburg, PA, and other places, it is very important on 
Capitol Hill to make sure they are in sync with the project; 
and that they are seen as in sync with what is going on.
    As you know, there are a lot of requests for money. 
Congress only needs to identify one problem to say, well, we 
will have to wait until next year for this project. So to the 
extent that you can get rid of the problems and get everybody, 
particularly in Washington, on board and as enthusiastic as 
possible, you can then be judged on the merits of the project 
and not on any problem that someone may have with the proposal.
    I think you put together a terrific presentation. You have 
a great group of folks working with you, and Senator Specter 
and I stand ready to help you, and we will. Now, let us go see 
the park.

                          subcommittee recess

    Senator Gorton. Thank you very much. Now we will proceed to 
show and tell.
    Senator Stevens. We are going to have about 10 to 15 
minutes with the press, and then we would like to take our 
walk. That concludes our hearing, we will stand in recess 
subject to the call of the Chair.
    [Whereupon, at 10:30 a.m., Monday, March 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


                      NATIONAL CONSTITUTION CENTER

                              ----------                              


                      WEDNESDAY, SEPTEMBER 2, 1998

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:11 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senator Specter.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF HON. EDWARD G. RENDELL, MAYOR, CITY OF 
            PHILADELPHIA, CHAIRPERSON, NATIONAL 
            CONSTITUTION CENTER

                opening remarks of senator arlen specter

    Senator Specter. The Subcommittee on Labor, Health and 
Human Services, and Education will now proceed. Our hearing 
this morning is on the National Constitution Center. We have 
convened this hearing to further establish the record of 
importance for the substantial Federal appropriation for this 
very important undertaking.
    The total cost of the center and the adjacent buildings 
will be established in the course of today's hearing with 
precision, but I understand it to be something in the 
neighborhood of $210 million. The organizers are looking to a 
Federal share of $65 million.
    Senator Santorum and I invited the Appropriations Committee 
to a special hearing in Philadelphia earlier this year, 
attended by the chairman of the full committee, Senator 
Stevens, and the chairman of the Subcommittee on Interior, 
Senator Gorton, Senator Domenici, Senator Santorum, and myself. 
Senator Gorton on the Interior Committee has put a mark in his 
subcommittee bill, which is out of full committee, of $10 
million, conditioned in effect on this subcommittee matching 
$10 million, which we put in our mark yesterday, and we are 
going to full committee tomorrow.
    It was our view that we ought to strengthen the record for 
this approach. The House of Representatives as I understand it, 
has nothing in their bill so far. Their bills are not finished. 
So that is a continuing battle. Some legislators have already 
gone to the floor to identify this. I forget what neat 
appellation they gave, but it was not a complimentary one to 
the National Constitution Center. But what is one man's 
imperative is another man's frivolity. You can quote me on 
that, Bettilou.
    We have a very distinguished panel today. We have America's 
Mayor for America's Constitution Center. I see his biographical 
resume which has been presented to me here, which omits his 
greatest distinction. That was being employed in the 
Philadelphia District Attorney's Office immediately after 
graduation from law school. He bamboozled the then-district 
attorney, was chief of homicide, prosecuted a great many cases 
as an assistant, knocked down a great many walls as an 
assistant, later was district attorney.
    I think that his election in the primary in May 1977 was 
one of my biggest thrills in the electoral process, including 
many of my own races.
    We have Richard Beeman, the Dean of the School of Arts and 
Sciences of the University of Pennsylvania. He has been there 
for some 30 years, received numerous grants and professional 
honors, and is an expert on revolutionary and early American 
history. The University of Pennsylvania will be a co-partner 
with the operation of the Constitution Center.
    We also have Mr. Joseph Torsella, who serves as President 
of the National Constitution Center, a Rhodes scholar, Penn 
grad, honors in economics and history, served as deputy mayor 
for the city.
    Mayor Rendell, we welcome you here and the floor is yours.

                   summary statement of mayor rendell

    Mr. Rendell. Thank you, Senator. Let me begin by thanking 
you and Senator Santorum for the leadership you have undertaken 
in what we know was a difficult task in trying to get money for 
this project here in the District of Columbia. We do not 
believe it ought to be a difficult task. We believe if you look 
at the history of the National Constitution Center it brings 
this issue more clearly into focus.
    As you know, Senator, because you were the prime proponent 
of the legislation, in 1988 the Congress of the United States 
adopted legislation creating the National Center for the 
Constitution. That legislation was signed by President Reagan. 
You gave the center two tasks: one, to continue the education 
and learning and knowledge of the American public about its 
Constitution, which I believe is the greatest document ever 
written by man and womankind.
    We have tried to do that faithfully over the last decade. 
We have a budget of a little more than a million dollars a 
year, which includes a $250,000 Federal matching grant, and 
with that small, relatively small sum of money, I think we have 
done an excellent job in trying to reach out and touch many 
Americans and instill upon them not only respect, but knowledge 
of the Constitution and how it works.
    We have a very, very active website. The first 2 weeks that 
our website was up we got over 200,000 hits. On our website you 
can download, teachers can download any one of 70-plus lesson 
plans on how to teach children at different grade levels the 
Constitution in a way that grabs their attention and relates it 
to modern life. These came from the Warren Burger Repository. 
As you know, Senator, the repository recently gave those lesson 
plans to us and made us the guardian and the distributor of 
those plans.
    We do educational programs throughout the year, run 
contests on the Constitution, and of course our Constitution 
Week activities, which touch many cities in each and every one 
of the 50 States in the Union, and are centered around the ``I 
Signed the Constitution'' campaign. We try to get Americans to 
come in during Constitution Week in public offices, post 
offices, representatives' offices, city halls and the like, to 
come in and sign the Constitution, to affix their signature 
next to Madison's or Jefferson's, and then they get in turn a 
small copy of the entire U.S. Constitution.
    That has been a very successful program. Over 1.7 million 
Americans have participated in it. As you know, we were able to 
show Senator Stevens when he was in Philadelphia the many 
different towns in Alaska that had ``I Signed the 
Constitution'' ceremonies. When we brought this idea to the 
President, we showed him many different towns in Arkansas that 
had the signing ceremony during ``Constitution Week.''
    But the second task you gave us back in 1988 was to create 
a museum for the Constitution. It is a task which on its face 
seems very simple. In America, as I outlined in my testimony, 
we have museums dedicated to everything: to the paper bag, to 
the history of insects, to top hats. There are museums 
literally to cover almost every element of American life, and 
yet there is no museum to cover what is undoubtedly the most 
important document in our country and I believe in this entire 
world.

                           prepared statement

    So we have set out on a plan to accomplish your mission, as 
you know, Senator. We have laid the groundwork for a building 
that will cost $130 million.
    [The statement follows:]
                Prepared Statement of Edward G. Rendell
    Good morning, Mr. Chairman, and thank you for the opportunity to 
testify to this committee today regarding the National Constitution 
Center (NCC). I want to thank you and the members of the committee for 
taking the time to hear about our plans for this exciting project.
    Mr. Chairman, we are deeply grateful to you for your leadership 
both in establishing the educational mission of the NCC through the 
Constitution Heritage Act of 1988, passed by Congress and signed by 
President Ronald Reagan, and for your unflagging support of that 
mission over the past ten years. I am here today to tell you that a 
truly remarkable result of your vision is well within our reach: the 
creation of the first ever institution devoted to educating the public 
about the United States Constitution.
    In the past 10 years, NCC has done an excellent job, with extremely 
limited resources, toward its first objective: education. We have 
developed award-winning radio programming, educational materials, and 
school contests. We maintain a library of curricula and lesson plans on 
the Constitution, the Warren E. Burger Repository, which we make 
available free to teachers around the nation and, indeed, around the 
world. Each September 17th, we commemorate the anniversary of the 
signing of the Constitution with our trademark ``I Signed the 
Constitution'' programs. Each year, participants sign a parchment 
replica of the Constitution, adding their names next to Madison's or 
Washington's, and receive in return new educational materials. An 
estimated 1.7 million Americans have participated, and the program is 
held in all 50 states of the union, at schools, senior citizen centers, 
libraries, businesses, national parks, government offices, and hundreds 
of other sites. Each year, we distribute hundreds of thousands of 
pocket-sized copies of the Constitution. And last year, in conjunction 
with our academic partner, the University of Pennsylvania, we debuted 
an exciting web site about the Constitution. This web site received an 
extraordinary 200,000 ``hits'' in its first two weeks of operation and 
has continued to receive thousands of visitors--teachers and school 
children among them--each month. We do all of this on an annual budget 
of approximately $1 million, supported in part by federal aid of 
approximately $230,000 each year. We are proud of our ability to 
leverage federal resources on a four-to-one basis and provide such 
quality outreach programming.
    But our educational mission calls for much more. Frankly, given our 
limited resources, we have been most successful at ``preaching to the 
choir.'' We reach schools and community and civic groups that often 
already have a high interest in the Constitution; we attract the 
attention of visitors to our National Parks who enjoy the opportunity 
to sign on to this precious document; we can count on our programs to 
generate excitement and enthusiasm in presidential libraries, patriotic 
societies, clubs and lodges in every corner of the nation. These, 
however, are just the tip of the iceberg. Too few Americans have even a 
basic working knowledge of the Constitution and its role in their 
everyday lives. And, as Dr. Beeman has pointed out in his testimony, 
the Constitution cannot run all by itself. The system it designs 
assumes an informed and involved citizenry. Today, we are in danger as 
never before of losing that invisible glue that holds the Constitution 
together.
    Last September, NCC commissioned a comprehensive poll of Americans' 
constitutional knowledge. The results demonstrated our startling 
ignorance of how our government works: more than half of those polled 
do not know the number of US Senators; almost one-quarter cannot name a 
single First Amendment right. Overall, just 5 percent of all adults 
could correctly answer ten basic questions about the Constitution. In 
fact, they were questions very much like those given on citizenship 
tests every day for immigrants who seek to become citizens of our great 
nation. If our poll had been a test, I am afraid our nation would have 
received a failing grade.
    Having obtained an indicator of the knowledge deficit among adults, 
we turned our attention this year to America's youth in a national 
survey of teens that compares their knowledge of popular culture with 
their knowledge of the Constitution. The results are fascinating and a 
full copy of this year's poll results is submitted as part of our 
written testimony today. Consider this:
  --Only 21 percent of American teens know how many US Senators there 
        are, but a full 84 percent know how many brothers there are in 
        the musical group ``Hanson.''
  --75 percent know what city in the United States boasts the zip code 
        90210, while only 26 percent know that the US Constitution was 
        written in Philadelphia.
  --Fewer than 2 percent of the teens polled could name the Chief 
        Justice of the United States Supreme Court, while almost 95 
        percent knew that Will Smith plays the Fresh Prince of Bel Air 
        on television.
  --Around 92 percent knew who stars as the father of the house in TV's 
        ``Home Improvement,'' while only a third polled knew the name 
        of the current Speaker of the House of Representatives.
  --Just over a third knew the first three words of the Preamble to the 
        Constitution, while almost 70 percent knew the first three 
        letters of most web site addresses.
    Statistics like those from our adult poll and this new information 
on teens' knowledge reinforce how critical it is for the NCC to pursue 
the second goal contemplated in the 1988 legislation: building the 
first-ever museum dedicated to the document from which the soul of our 
government grew and flourished. And these statistics are why, just over 
a year ago, I accepted the position of Chairperson of NCC, even though 
I have never before or since taken a position outside of government 
during my term as Mayor. I believe that building this museum and 
reversing this tide of ignorance is absolutely critical to the health 
of our democracy. And I am confident that we are in a unique position 
to do just that, especially because the Constitution Center and its 
outreach programs will bring these ideas to life in such a way that the 
stories we tell are every bit as compelling as the stories kids learn 
when they turn on the TV, log onto the Internet, listen to the radio, 
and absorb popular print.
    It is astonishing that there is no museum devoted to this 
incredible document, one of the world's finest political creations. For 
two centuries, the Constitution has made the United States into the 
most successful democracy the world has ever seen. It has inspired, and 
been emulated by, hundreds of other nations, literally remaking the 
globe. But even in Philadelphia, where the Constitution was conceived, 
the Constitution's role in our world today goes uncelebrated and 
unexplained. As one commentator has written, ``The United States has 
museums devoted to the appreciation of peanuts, cakes, gourds, NASCAR 
racing and Barbara Streisand, but it has none that concentrates on this 
supple framework for history's most successful experiment in 
democracy.''
    Today we are on the verge of at last realizing the dream you first 
laid out during the Constitution's bicentennial. With your support, the 
Constitution Center can break ground on the first Constitution Day of 
our third millennium, September 17, in the year 2000. Now is the moment 
to turn this dream we all share into a reality, and I am here today to 
ask this committee to do just that. We are asking for a total federal 
appropriation of $65 million, with $20 million for fiscal year 1999 and 
two future installments funding the balance. We seek support from this 
committee for $10 million--half of our fiscal year 1999 request of $20 
million--which will be applied directly to the key educational 
components of the Center: storyline development and exhibition content 
and design.
    I want to emphasize that the amount we are requesting, although 
one-half of the capital budget for the Constitution Center, represents 
a lower percentage of the capital costs of all the improvements called 
for in the National Park Service's General Management Plan (GMP) for 
Independence Park. The combined cost of the other GMP projects is an 
additional $75.6 million. So the total capital cost for all the 
improvements to Independence Mall, including the Constitution Center, 
is approximately $205.6 million, and a $65 million federal contribution 
to NCC would represent less than one-third of that amount.
    This is an important point, since all of the other major capital 
projects--the Liberty Bell Pavilion, the Gateway Visitor Center, the 
parking garage--are being built with non-federal funds. Of the total 
required, we have already raised $58 million from non-federal sources--
the City of Philadelphia, the Commonwealth of Pennsylvania, and 
generous private donors including the Pew Charitable Trusts and 
Ambassador and Mrs. Walter Annenberg--and these projects will begin 
construction shortly. (This $58 million is in addition to the $30 
million authorized by the Commonwealth for the Constitution Center). 
Further, this project has already attracted extraordinary support--
including the participation of Presidents Bush, Reagan, Carter and 
Ford, all of whom serve with their wives on our Honorary Board--and the 
momentum of our private fundraising will increase dramatically in 
response to a strong lead from Congress.
    I would like to clarify for the Committee that the funding we seek 
for fiscal year 1999, 2000, and 2001 will be our full request for NCC. 
The fundraising plan for NCC has never envisioned the participation of 
the federal government in the continued operation and maintenance of 
the NCC after construction of the Constitution Center is completed. We 
expect that market demand, subscriptions, endowment income, and other 
non-federal fundraising mechanisms will serve as the source for 
operating and maintaining this great treasure.
    Mr. Chairman, as an elected official I understand and appreciate 
the many difficult decisions you and your colleagues are asked to make 
on a daily basis. Like the City of Philadelphia, the Commonwealth of 
Pennsylvania, and this country, this committee faces many challenges 
that need to be addressed, and will always have more needs than 
resources.
    Nevertheless, I urge you to make the Constitution Center a priority 
project for this committee, for Congress, and for the nation. America 
and Americans deserve it and, in fact, require it, if the flame of 
freedom is to continue to burn bright. Only when Americans understand 
how their government works can they fully participate in its 
operations. As Judge Learned Hand wrote, ``Liberty lies in the hearts 
of men and women: When it dies there, no Constitution, no law, no court 
can even do much to help it.''
    In closing, Mr. Chairman, I want to draw your attention to some 
good news from our national surveys. While the polls on constitutional 
knowledge make clear that we have much to do to educate our citizens 
about our constitutional heritage, there is a silver lining. Both polls 
of adults and teens point to a terrific opportunity for us to carry out 
our educational mission. We learned from the adult polls that even if 
Americans know little about our constitutional system, they care deeply 
about it and feel that the Constitution is important to their daily 
lives. And from the teen poll, we have seen the potential to educate 
using popular culture media and techniques. These positive responses 
tell us two things: First, the opportunity is here for us to capitalize 
on this heartfelt sense of the Constitution's importance; second, 
people are inspired to learn when they are personally touched by 
compelling, human stories and situations. So, our poll this year should 
not be read as an indictment of teenage Americans for not knowing their 
constitutional ABC's; it's an opportunity for us to learn something 
about how to capture their interest. If teenagers understand the ``girl 
power'' mantra of the Spice Girls, then creating enthusiasm to learn 
about the women's suffrage movement is achievable. In the spectacular 
new Constitution Center and through the Constitution Center's state-of-
the-art outreach programming, we can tap into lively and natural 
curiosity of people of all ages, bringing the Constitution's ideas and 
ideals to center stage in our national consciousness.
    Thank you.
    national constitution center's constitutional knowledge survey 
                         questionnaire n = 600
    Hello, my name is (____________________) and I'm calling from a 
national public opinion research company. We are looking for teenagers 
between 13 and 17 years old to participate in a survey about current 
affairs and entertainment. It will only take five minutes and it will 
be fun. Is there a teenager between the ages of 13 and 17 living at 
your home?
    [IF YES] May I speak to that person?
    [IF NOT AVAILABLE] When would be a good time to call back?
    [IF NO] Thank and terminate.
    [INTRO FOR TEENAGER INTERVIEW]
    Hello, my name is (____________________) and I'm calling from a 
national public opinion research company. We are interviewing teenagers 
across the country about current events and entertainment. We're just 
interested in your opinions. This will only take five minutes and it 
will be fun.
                                                                 Percent

[DO NOT PAUSE]
    TELEPHONE NUMBER
    SOURCE
    1. ORIGINAL CALL..............................................  91.5
    2. REDIAL OF PREVIOUS INTERVIEW...............................   8.5
1. First, what is your age, please?
    1. 13.........................................................  22.0
    2. 14.........................................................  18.0
    3. 15.........................................................  24.2
    4. 16.........................................................  18.3
    5. 17.........................................................  16.5
    6. DON'T KNOW/REFUSED [DO NOT READ]...........................   1.0
2. Gender [BY OBSERVATION]
    1. MALE.......................................................  50.0
    2. FEMALE.....................................................  50.0
3. In what city would you find the zip code 90210?
    1. BEVERLY HILLS/LOS ANGELES, CALIFORNIA......................  75.2
    2. ALL OTHER..................................................   5.2
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  19.7
4. In what city was the US Constitution written?
    1. PHILADELPHIA...............................................  25.5
    2. ALL OTHER..................................................  32.3
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  42.2
5. Name the male star of the movie Titanic.
    1. LEONARDO DICAPRIO/DICAPRIO/LEO DICAPRIO....................  89.7
    2. ALL OTHER..................................................   1.2
    3. DK/REFUSED (DO NOT READ)...................................   9.2
6. Name the Vice President of the United States.
    1. AL GORE, Jr./AL GORE/ALBERT GORE/GORE......................  73.8
    2. ALL OTHER..................................................   3.5
    3. DK/REFUSED (DO NOT READ)...................................  22.7
7. How many brothers are there in the musical group ``Hanson?''
    1. 3..........................................................  81.2
    2. ALL OTHER..................................................   4.5
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  14.3
8. How many U.S. Senators are there?
    1. 100........................................................  21.2
    2. ALL OTHER..................................................  30.5
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  48.3
9. What are the first three letters of almost every website 
  address?
    1. WWW........................................................  71.2
    2. ALL OTHER..................................................  11.3
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  17.5
10. What are the first three words of the Constitution?
    1. WE THE PEOPLE..............................................  35.5
    2. ALL OTHER..................................................   4.3
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  60.2
11. What does the device The Club protect?
    1. YOUR CAR...................................................  63.7
    2. ALL OTHER..................................................   1.7
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  34.7
12. What does the fifth amendment protect?
    1. DOUBLE JEOPARDY/SELF-INCRIMINATION/RIGHT TO A GRAND JURY/
      DUE PROCESS/COMPENSATION FOR PRIVATE PROPERTY TAKEN FOR 
      PUBLIC USE..................................................  25.0
    2. ALL OTHER..................................................  22.2
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  52.8
13. Which musical band celebrates ``girl power?''
    1. THE SPICE GIRLS/SPICE GIRLS................................  92.8
    2. ALL OTHER..................................................   0.8
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................   6.3
14. In which century did American women obtain the right to vote?
    1. THE TWENTIETH CENTURY/1900's...............................  54.3
    2. ALL OTHER..................................................  18.5
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  27.2
15. Name as many of the Three Stooges as you can. (ACCEPT MULTIPLE 
  ANSWERS)
    1. CURLY......................................................  83.2
    2. LARRY......................................................  73.8
    3. MOE........................................................  81.7
    4. SHEMP......................................................  10.8
    5. CURLY JOE..................................................   4.3
    6. DON'T KNOW ANY NAMES.......................................  12.8
15 TOTAL NUMBER OF STOOGES IDENTIFIED (Name as many of the Three 
  Stooges as you can.)
    0. NONE.......................................................  12.8
    1. ONE........................................................   4.5
    2. TWO........................................................  12.8
    3. THREE......................................................  59.2
    4. FOUR.......................................................   7.2
    5. FIVE.......................................................   3.5
16. Name the three branches of the federal government.
    1. EXECUTIVE (PRESIDENT)......................................  49.2
    2. LEGISLATIVE (CONGRESS).....................................  61.5
    3. JUDICIAL (COURTS)..........................................  62.0
    4. ALL OTHER..................................................   5.3
    5. DON'T KNOW/REFUSED (DO NOT READ)...........................  22.8
16. TOTAL NUMBER OF BRANCHES IDENTIFIED (Name the three branches 
  of the federal government.)
    0. NONE.......................................................  25.8
    1. ONE........................................................  16.8
    2. TWO........................................................  16.2
    3. THREE......................................................  41.2
17. How old do you have to be to see an rated R movie in a theater 
  without a parent or guardian?
    1. SEVENTEEN..................................................  65.3
    2. ALL OTHER..................................................  29.7
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................   5.0
18. How old do you have to be to vote in a national election for 
  president?
    1. EIGHTEEN...................................................  90.8
    2. ALL OTHER..................................................   7.0
    3. DON'T KNOW/REFUSED.........................................   2.2
19. Who played the Fresh Prince of Bel Air on Television?
    1. WILL SMITH.................................................  94.7
    2. ALL OTHER..................................................   0.5
    3. DON'T KNOW/REFUSED.........................................   4.8
20. Who is the Chief Justice of the U.S. Supreme Court?
    1. WILLIAM REHNQUIST/REHNQUIST/JUSTICE REHNQUIST..............   2.2
    2. ALL OTHER..................................................   6.0
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  91.8
21. What comedian/talkshow host is known for his nightly Top Ten 
  List?
    1. DAVID LETTERMAN............................................  53.0
    2. ALL OTHER..................................................  14.2
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  32.8
22. What are the first ten amendments to the Constitution known 
  as?
    1. THE BILL OF RIGHTS.........................................  44.8
    2. ALL OTHER..................................................   4.7
    3. DON'T KNOW/REFUSED.........................................  50.5
23. Who stars as the father of the house in TV's ``Home 
  Improvement?''
    1. TIM TAYLOR/TIM ALLEN/TIM ``THE TOOLMAN''...................  89.8
    2. ALL OTHER..................................................   1.3
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................   8.8
24. Who is currently the Speaker of the House in the United States 
  Congress?
    1. NEWT GINGRICH..............................................  32.7
    2. ALL OTHER..................................................   5.5
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  61.8
25. Who is considered the father of the computer company 
  Microsoft?
    1. BILL GATES/GATES/WILLIAM GATES.............................  58.3
    2. ALL OTHER..................................................   3.5
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  38.2
26. Who is considered the father of the U.S. Constitution?
    1. JAMES MADISON/MADISON......................................   1.8
    2. ALL OTHER..................................................  54.2
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  44.0
27. What famous football player was found not guilty of murdering 
  his ex-wife in 1995?
    1. OJ SIMPSON/OJ/SIMPSON......................................  87.5
    2. ALL OTHER..................................................   1.2
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  11.3
28. What landmark Supreme court case found that separate but equal 
  treatment for blacks and whites in public schools was 
  unconstitutional?
    1. BROWN VERSUS BOARD OF EDUCATION............................   9.2
    2. ALL OTHER..................................................   5.5
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  85.3
29. What's the name of the town where Bart Simpson lives?
    1. SPRINGFIELD................................................  74.3
    2. ALL OTHER..................................................   1.0
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  24.7
30. What's the name of the town where Abraham Lincoln lived for 
  most of his adult life and which he represented when in 
  Congress?
    1. SPRINGFIELD................................................  12.2
    2. ALL OTHER..................................................  16.7
    3. DON'T KNOW/REFUSED (DO NOT READ)...........................  71.2

                          PARENTS AND TEACHERS

31. How often do you talk about politics and government with your 
  parents or guardians?
    1. DAILY......................................................   8.3
    2. A FEW TIMES A WEEK.........................................  14.2
    3. ONCE A WEEK................................................  10.0
    4. A FEW TIMES A MONTH........................................   7.7
    5. ONCE A MONTH...............................................   5.5
    6. RARELY.....................................................  30.7
    7. NEVER......................................................  22.7
    8. DON'T KNOW/REFUSED (DO NOT READ)...........................   1.0
32. How often do your teachers talk about politics and government 
  with you?
    1. DAILY......................................................  38.0
    2. A FEW TIMES A WEEK.........................................  23.5
    3. ONCE A WEEK................................................   9.0
    4. A FEW TIMES A MONTH........................................   9.0
    5. ONCE A MONTH...............................................   4.0
    6. RARELY.....................................................  10.0
    7. NEVER......................................................   3.7
    8. DON'T KNOW/REFUSED (DO NOT READ)...........................   2.8

                              DEMOGRAPHICS

33. In an average weekday--how many hours a day do you watch TV?
    0. NEVER......................................................   2.3
    1. ONE........................................................  14.3
    2. TWO........................................................  23.0
    3. THREE......................................................  20.7
    4. FOUR.......................................................  11.7
    5. FIVE.......................................................   9.7
    6 to 10. SIX-TEN..............................................  11.8
    11 +. ELEVEN-TWENTY-FOUR......................................   5.3
    25. DON'T KNOW/REFUSED........................................   1.2
34. How many days in the typical week do you read or listen to the 
  news for at least 15 minutes a day?
    1. DAILY......................................................  51.5
    2. A FEW TIMES A WEEK.........................................  32.0
    3. ONCE A WEEK................................................   6.5
    4. A FEW TIMES A MONTH........................................   0.8
    5. ONCE A MONTH...............................................   0.8
    6. RARELY.....................................................   3.0
    7. NEVER......................................................   4.8
    8. DON'T KNOW/REFUSED (DO NOT READ)...........................   0.5
35. In an average weekday how many hours a day do you do homework?
    0. NEVER......................................................   4.8
    1. ONE........................................................  35.8
    2. TWO........................................................  26.8
    3. THREE......................................................  14.3
    4. FOUR.......................................................   6.7
    5. FIVE.......................................................   4.2
    6 to 10. SIX-TEN..............................................   3.8
    11 +. ELEVEN-TWENTY-FOUR......................................   0.8
    25. DON'T KNOW/REFUSED........................................   2.7
36. What kind of grades do you get in school: Just stop me when I 
  read the right category:
    1. MOSTLY Ds AND Fs...........................................   1.7
    2. MOSTLY Cs AND Ds...........................................   5.0
    3. MOSTLY Bs AND Cs...........................................  26.0
    4. MOSTLY As AND Bs...........................................  49.0
    5. MOSTLY As..................................................  17.7
    6. DON'T KNOW/REFUSED (DO NOT READ)...........................   0.7

                           independence mall

    Senator Specter. Where does the figure of $210 million come 
in here?
    Mr. Rendell. That comes if you look at Independence Mall, 
the three blocks that make up the mall of Independence National 
Historic Park. If you look at the three blocks in the mall, 
they are all undergoing reconstruction. The third block has the 
Constitution Center. The first two blocks will house a new 
pavilion for the Liberty Bell, a new interpretive center to the 
Liberty Bell, a new Independence Institute, which will also be 
a teaching vehicle, and on the second block a new visitors 
center for INHP.
    That part of the project will cost $70 million-plus and 
there is less than $2 million of Federal money in that part of 
the project. The other money comes from the State of 
Pennsylvania, the city of Philadelphia, the Pugh charitable 
trusts, and Ambassador and Mrs. Annenberg, who gave a $10 
million personal gift from their foundation.
    So the total public funding, Federal public funding, in 
this project will be less than one-third of the overall cost of 
the reconstruction.
    Senator Specter. Mayor Rendell, if you project $67 million, 
$65 million plus $2 million, out of $210 million, it has an 
easier ring on a sale in Washington than $65 million on $130 
million.
    Mr. Rendell. I understand. I was getting to that.
    Senator Specter. OK.
    Mr. Rendell. But you are right, Senator, and that is one of 
the points that you had made in your opening statement, and I 
wanted to reiterate that. That is absolutely the case. In fact, 
I know of no work being done in any part of the National Park 
Service, as in the first two blocks, where 95 percent of the 
work is being done without Federal dollars. I think it is an 
extraordinary effort by the city, the State, and the private 
sector to do that.
    We believe that this museum will be extraordinarily 
important to Americans, Senator, not just for Philadelphia. If 
this was just a Philadelphia issue, I do not think we would be 
here. But we believe the museum will have great importance to 
America.
    Last year, as you know, Senator, we took a poll, a national 
poll about what adults knew and felt about the Constitution. 
There was good news and bad news in the poll. The good news was 
that nearly 90 percent of Americans polled said they had a 
great sense, a real sense of reverence about the Constitution 
and thought it was a great document. 85 percent said that for 
the Constitution to work at its greatest capacity American 
citizens should be knowledgeable about the Constitution.
    But then the poll revealed that American citizens in fact 
were not knowledgeable, adult American citizens were not 
knowledgeable at all. Only 6 percent of American adults 
questioned could name the four freedoms guaranteed in the First 
Amendment. Less than two-thirds, about a third of all American 
adults questioned, could not name the three branches of the 
Federal Government. 52 percent of adults could not name the 
number of United States Senators that the Constitution 
requires.
    On and on. There were other misconceptions. One out of six 
Americans believed that the Constitution established the United 
States as a Christian nation. There were all sorts of glaring 
misconceptions. On a rudimentary poll of 10 basic questions, 
only 5 percent of Americans could get that rudimentary poll 
correct.
    We released those statistics last year and I think they 
were an eye-opener for people, both the reverence that 
Americans have for the Constitution, but also their lack of 
knowledge.
    This year, and actually today, although it got out 
yesterday a little bit, we also want to highlight a poll that 
we took this year, Senator, involving teenagers in America, 
where we juxtaposed teenagers' knowledge of the Constitution to 
their knowledge of basic pop culture. The poll is highlighted 
in that chart to the left, but if I can touch on some of the 
more interesting results.
    Only 1.8 percent of American teenagers knew that James 
Madison was the father of the United States Constitution, but 
almost 60 percent of American teenagers knew that Bill Gates 
was the father of Microsoft.
    Only 2.2 percent of American teenagers knew that the Chief 
Justice of the United States was William Rehnquist, but 95 
percent of American teenagers knew that the Fresh Prince of 
Belair was Philadelphia's own Will Smith.
    Only 21 percent of American teenagers knew how many U.S. 
Senators there were, but 81 percent of American teenagers knew 
how many brothers made up the singing group the Hansens.
    25 percent of American teenagers knew what the Fifth 
Amendment protected, but 64 percent of American teenagers knew 
what The Club protects, the device The Club.
    25 percent of American teenagers knew that the Constitution 
was written in Philadelphia, but 75 percent of American 
teenagers knew that you would find the ZIP Code 90210 in 
Beverly Hills, CA.
    Only 41 percent of American teenagers could name the three 
branches of the Federal Government, but 60 percent of American 
teenagers could give you the names of the Three Stooges.
    The good new for the Vice President: Almost 74 percent of 
American teenagers could name Al Gore as the Vice President, 
but that pales in comparison to the 90 percent of American 
teenagers who could tell you that the male star of the movie 
Titanic was Leonardo DiCaprio.
    So there is a huge gap both in adults and teenagers in the 
knowledge about this great instrument and this great document. 
We believe that our center, our museum, can in fact change a 
lot of that. We believe our average attendance will be 
somewhere between 1 million and 2 million people a year, and we 
believe most of them will be American families. It is our 
mission to correct what is obviously the failings of our basic 
education system that educates our teenagers about things like 
the Constitution, because our museum will be exciting, 
interesting, it will grab their attention, and it will be 
informative by showing America's young people as well as 
America's adults how the Constitution relates to their lives, 
how it affects them in modern 1998 America.
    We think that that type of approach, coupled with the 
educational functions that you will hear that the University of 
Pennsylvania and Dr. Beeman are going to talk about, that type 
of approach will in fact have a dramatic effect in changing 
what Americans know and feel about this great document.
    We also believe that as high school teachers and other 
teachers come to the Constitution Center they will learn about 
our website, they will learn about the availability of the 
lesson plans, and they will bring those lesson plans back to 
their kids.
    So we believe that this is an enormously important project 
for the United States of America, not just for Philadelphia.
    Last, and I do not want to take any of Dr. Beeman's area, 
but I do want to say that, in addition to the exhibits and the 
wonderful things that will be in the museums, one of the things 
I think Joe is going to touch on is the museum will create--as 
you go into the museum you will get a delegate's pass and, 
among other things, we will have a room where the delegate 
visitor will pass through and will hear a debate on 
Constitutional issues of the time.
    For example, were the center up right now we would have 
you, Senator, talking about whether in fact campaign financing 
legislation violated the Constitution, and we would have 
someone else----
    Senator Specter. Would you have Senator McCain doing that, 
too?
    Mr. Rendell. We would have someone else on the other side.
    Senator Specter. No; he is on the same side.
    Mr. Rendell. Well, then someone on the other side. And we 
would ask----
    Senator Specter. You ought to have Senator McCain doing 
that.
    Mr. Rendell. All right, we will have Senator McCain doing 
it. It may not be relevant in 2002, hopefully, but just to give 
you an idea.
    Then we would ask the delegates to cast their vote, so we 
could almost have a contemporary running poll on the hottest 
constitutional issues of the day.
    So in any event, we believe this is a great for 
Philadelphia, but, even more importantly, a great idea for 
America, and we would again ask that this committee add the $10 
million into its budget, and we will fight on the House side to 
make sure that in conference committee there are 
Representatives there who are receptive to this.
    Again, Senator, we want to thank you. Had you not brought 
the Interior Committee to Philadelphia for the field hearing, I 
do not think we would have progressed to the level that we have 
progressed today, and we are very appreciative of all your 
efforts.
    Senator Specter. Mayor Rendell, thank you for your 
testimony. As you know, I have been pushing hard since I 
introduced the legislation for the National Constitution Center 
way back on April 21, 1987. It was a spectacular celebration 
when the 200th anniversary was celebrated on September 17, 
1987. President Reagan was in town. In front of Independence 
Hall we have those markings, one where President Lincoln spoke 
in 1862 and one where President John Kennedy spoke in 1963. It 
is truly historic.
    I refer to Senator McCain only because he was the author of 
the ``pork'' comment. How anybody could call the National 
Constitution Center pork is a little beyond my personal 
comprehension. It is about the same thing as calling Dirksen 
Room 138 pork, where we are having our hearing today, or the 
Senate chamber, or the House chamber or the Rotunda.
    It is as magnificent a Federal institution as you can find. 
We have talked about this before. I think we need to find as 
many ways as we can to publicize the Constitution Center so 
that people across America know about it even if they cannot 
get there.
    Mr. Rendell. That is right. On our web site, once the 
center is built, Senator, we intend--and Joe can tell you more 
about that, but we intend to basically have a virtual reality 
center, so you can be sitting at home in Spokane, Washington, 
and literally traverse, go through the center, the way a 
delegate who is physically present in Philadelphia could do so.
    I think that will bring the center and its reality and what 
it teaches to a much wider scope than even the one to two 
million people a year who go through it.
    Senator Specter. The aspect of the Constitution as a 
living, expanding document is one which is not really 
understood. There are many people who articulate the intent of 
the Founding Fathers, which is a little hard to figure out 
sometimes. The one case which stops everybody cold is Brown 
versus Board of Education. Nobody is going to disagree with 
integration in America and that does not square with the 
Constitution in 1787 or with the post-Civil War amendments, the 
13th, 14th, and 15th amendments.
    We have had some testy and incisive debates on the Supreme 
Court confirmation hearings on that precise point. I will not 
specify which ones since this is an election year. But those 
are concepts which really need to be articulated.
    Were you in the college or the Wharton School?
    Mr. Rendell. I was in the college, and my son starts in the 
college on Saturday.
    Senator Specter. Well, they will have an easier time with 
Jesse Rendell than with Edward G. Rendell.
STATEMENT OF RICHARD R. BEEMAN, DEAN, COLLEGE OF ARTS 
            AND SCIENCES, UNIVERSITY OF PENNSYLVANIA
    Senator Specter. With that, we will turn to Dean Beeman of 
the School of Arts and Sciences, University of Pennsylvania. He 
came there a little after I graduated.
    Dean Beeman, the floor is yours.
    Mr. Beeman. Thank you very much, Senator. I am going to be 
delighted--I am the new dean of the College of Arts and 
Sciences. I am going to be delighted to welcome the mayor's son 
to Penn.
    Mr. Chairman, thank you so much for this opportunity to 
testify about the important purposes of the proposed National 
Constitution Center. I and my colleagues at Penn join Mayor 
Rendell in our gratitude to you for your support for the 
Constitution Center, but also we are enormously grateful for 
your support for so many other initiatives in research and 
higher education, in biomedical research, in the National 
Institutes for Health, on undergraduate and graduate student 
financial assistance. All of that support is greatly 
appropriated.
    Mr. Chairman, we Americans are indeed blessed to live under 
the protection of the Constitution. It has allowed an 
extraordinary measure of individual liberty for our citizens 
and at the same time it has provided our Nation a remarkable 
measure of public order and stability. Liberty and order, those 
are the essential aims of any government.
    Such is our confidence in the durability of the government 
created by the Founding Fathers that it is easy to take those 
blessings of liberty and stable government for granted. But the 
Founding Fathers themselves as they prepared to leave 
Philadelphia after the adjournment of the Constitutional 
Convention in September 1787, they were far less sanguine about 
the prospects for their new government.
    On September 17th, the final day of the convention, 
Benjamin Franklin, the founder of my and our university, rose 
to give what would be the last major speech of his life. Ever 
the optimist, even at the age of 81, he nevertheless gave what 
was for him a remarkably restrained assessment of the 
government he and his colleagues had labored to create:
    ``When you assemble a number of men to have the advantage 
of their joint wisdom,'' he noted, ``you inevitably assemble 
with those men all their prejudices, their passions, their 
errors of opinion, their local interests, and their selfish 
views.''
    Franklin thought it impossible to expect a perfect 
production from such a gathering, but he believed that the 
Constitution they had just drafted, with all its faults, was 
better than any alternative that was likely to emerge.
    Nearly all of the delegates harbored objections to the 
document. They too believed that much of it was still 
imperfect. But, persuaded by Franklin's logic, they put their 
misgivings aside and affixed their signatures to it.
    More important, following adoption of the Constitution, 
Franklin and his fellow delegates worked tirelessly to make 
certain that America's experiment in liberty would be a 
success. They and their successors, men like John Marshall and 
Daniel Webster and John C. Calhoun and Abraham Lincoln, 
realized that the Federal edifice so recently created was not a 
self-actuating or a self-sustaining one. It could only be 
sustained, they knew, by renewed dedication and constant 
commitment to the principles of American government.
    Our Founding Fathers understood that our system of 
democratic government came with no guarantees. They knew that 
the new republic would require active, informed citizen 
involvement to preserve, protect, and defend it. This, Mr. 
Chairman, as you know, is the basic, if daunting mission of the 
National Constitution Center--to make sure that the citizens of 
our Nation live up to their obligation to understand and to 
nurture the Constitution and our system of government.
    The University of Pennsylvania is proud, therefore, to 
commit resources to the establishment of a National 
Constitution Center. It is a commitment that includes our 
excellent history department and law school, which together are 
working to lay a foundation for renewed scholarship and public 
discussion about the origins and purpose of American 
government.
    Dean Gary Hack of our Graduate School of Fine Arts is 
actively involved on a pro bono basis in the design of the 
museum, and the faculty of Penn's Graduate School of Education 
are actively engaged in the creation and dissemination of 
teaching materials on the Constitution for use by students in 
our Nation's schools. As the Mayor has already mentioned, Penn 
has also worked with the center in setting up its new user-
friendly web site, and we will continue to provide support to 
help refine that website.
    These and other examples of Penn's support for the National 
Constitution Center are an outgrowth of our commitment to 
higher education, to the higher purposes of education, to 
educate an informed citizenry, a citizenry aware not only of 
the rights provided by our Constitution, but also of our 
responsibilities to keep America's experiment in liberty a 
viable and vibrant one.
    As an historian of the Revolution and the Constitution who 
has taught in Philadelphia for the past 30 years, I am aware of 
how the historic buildings on Independence Mall and its 
environs--Independence Hall itself, Congress Hall--they provide 
an exciting opportunity to teach Americans, as well as tens of 
thousands of foreign visitors, about these critical moments in 
our Nation's past.
    The National Park Service is doing an outstanding job both 
of preserving Philadelphia's physical heritage and in 
interpreting the events that transpired in those historic 
buildings. The National Constitution Center's new mission will 
be to build intellectual bridges between that important 
eighteenth century history and the twenty-first century, so 
that we might better appreciate where we have come from and 
where we might be headed.
    I really do believe that it will be the synergy created 
between the efforts of the Park Service and those of the 
Constitution Center that will make the educational experience 
on Independence Mall such a powerful one.
    I see that red light in front of me, but if I might have 30 
seconds to express--to end on a personal note. I serve on a 
National Advisory Board of Scholars which helps guide the 
center's public outreach efforts. That board includes scholars 
from all over the country and it is a very distinguished bunch, 
including several Pulitzer Price winners. Each of us is 
privileged to teach in our respective universities a few 
hundred students each year about the Constitution and the birth 
of democracy.

                           prepared statement

    Our experience as teachers has been enormously rewarding to 
us. It is I think the most rewarding thing we do. But our 
ambition--and I hope I use that word in a public-spirited and 
not a self-interested sense--our ambition is to extend teaching 
and learning well beyond our classrooms. If the ambitions of 
the National Constitution Center are realized, we will be able 
to reach millions of American citizens to inform them, as we do 
the students in our classrooms, about the priceless heritage 
Franklin and the other framers bequeathed us.
    Thank you very much for your time, and of course I would be 
pleased to answer any questions you might have.
    [The statement follows:]

                  Prepared Statement of Richard Beeman

    My name is Richard Beeman. I am a Professor of History and 
Dean of the College of Arts and Sciences at the University of 
Pennsylvania. I also have the privilege and honor of serving as 
the National Constitution Center's first Senior Visiting 
Scholar.
    Mr. Chairman, thank you for the opportunity to testify 
before you this morning on the proposed new National 
Constitution Center .
    Let me say at the outset, I and my colleagues at Penn 
salute the vision you have shown in seeking to secure federal 
funding to build the Constitution Center. Your leadership on 
this and other matters of critical importance to the University 
of Pennsylvania and the nation--in biomedical research at the 
National Institutes of Health and on undergraduate and graduate 
student financial assistance--is greatly appreciated.
    Mr. Chairman, we Americans are fortunate to live under the 
protection of the United States Constitution. It has 
established an extraordinary measure of individual liberty for 
the citizens of our nation. At the same time, the Constitution 
has also provided our nation a remarkable measure of public 
order and stability.
    Such is our confidence in the durability of the government 
created by the Founding Fathers that it is easy to take the 
blessings of liberty and of stable, just government for 
granted.
    The Founding Fathers themselves, as they prepared to leave 
Philadelphia after the adjournment of the Constitutional 
Convention in September 1787, were wisely more modest about 
their accomplishments. And they were far less sanguine about 
the prospects for the new government.
    On September 17, 1787, the final day of the Constitutional 
Convention, Benjamin Franklin, who also was the founder of the 
University of Pennsylvania, rose to give what would be the last 
major speech of his life. Ever the optimist, even at the age of 
81, he nevertheless gave what was for him a remarkably 
restrained assessment of the government he and his colleagues 
had labored to create.
    ``When you assemble a number of men to have the advantage 
of their joint wisdom,'' he noted, ``you inevitably assemble 
with those men all their prejudices, their passions, their 
errors of opinion, their local interests, and their selfish 
views.'' Franklin thought it impossible to expect a ``perfect 
production'' from such a gathering, but he believed that the 
Constitution they had just drafted, ``with all its faults,'' 
was better than any alternative that was likely to emerge. 
Nearly all of the delegates harbored objections to a document 
that they believed to be still imperfect, but, persuaded by 
Franklin's logic, they put aside their misgivings and affixed 
their signatures to it.
    More important, following adoption of the Constitution by 
the individual states, Franklin and his fellow delegates worked 
tirelessly to make certain that America's experiment in liberty 
was a success. They, and their successors--men like John 
Marshall, Daniel Webster, John C. Calhoun, Henry Clay, and 
Abraham Lincoln--realized that the federal edifice so recently 
created was not a self-actuating or a self-sustaining one. It 
could only be sustained, they knew, by renewed dedication and 
constant commitment to the principles of American government. 
These would require the attention and devotion of all citizens.
    Our Founding Fathers understood that our system of 
democratic government came with no guarantees. Not in 1787, or 
today. They knew that the new republic would require active, 
informed citizen involvement to preserve, protect, and defend 
it.
    This, Mr. Chairman, as you know, is the basic, if rather 
daunting, mission of the National Constitution Center. To make 
sure that we as a nation understand that each of our citizens 
has an obligation to understand, to guard, and to protect the 
Constitution and our system of government.
    The National Constitution Center is designed to be a living 
national museum devoted to advancing public understanding of 
the principles, rights, and responsibilities of American 
citizenship, past and present.
    The United States currently does not have a facility that 
performs this critical function at a time when we know that the 
public's understanding of the American experiment in democratic 
government has unfortunately eroded. We cannot afford the 
luxury of ignorance or apathy today, any more than we could at 
any other critical time in the nation's past.
    The University of Pennsylvania is proud, therefore, to 
commit resources to the establishment of a National 
Constitution Center. It is a commitment that includes the 
History Department and Law School, which together are working 
to lay a foundation for renewed scholarship and discussion 
about the origins and purpose of American government. In 
addition, Dean Gary Hack of our Graduate School of Fine Arts is 
helping design the museum, and the faculty of Penn's Graduate 
School of Education are actively engaged the creation and 
dissemination of teaching materials on the Constitution for use 
by students in our nation's schools. Penn has also worked with 
the Center in setting up its new user-friendly web site, which 
we will continue to support and refine.
    These and other examples of Penn's support for the National 
Constitution Center are an outgrowth of our commitment, really 
since the Revolutionary Era, to educate an informed citizenry--
a citizenry aware, not only of its rights protected by our 
Constitution, but also of its responsibility to keep America's 
experiment in liberty a viable and vibrant one.
    As an historian of the Revolution and the Constitution, who 
has taught in Philadelphia for the past thirty years, I am 
aware of how the historic buildings on Independence Mall and 
its environs--Independence Hall, Congress Hall, the American 
Philosophical Society, Carpenters Hall--provide an exciting 
opportunity to teach Americans, as well as tens of thousands of 
foreign visitors, about this critical moment in our nation's 
past.
    The National Park Service is doing an outstanding job of 
both preserving Philadelphia's physical heritage and in 
interpreting the events that transpired in those historic 
buildings. The National Constitution Center's new mission, on 
the other hand, will be to build intellectual bridges, if you 
will, between that important eighteenth century history and the 
twenty-first century--so that we might better appreciate where 
we have come from and where the nation might be headed.
    Mr. Chairman, allow me to conclude on a personal note. I 
serve on a National Advisory Board of Scholars which helps 
guide the Center's public outreach efforts. That board includes 
scholars from all over the country--from Rhode Island, New 
Jersey, Ohio, and California. It includes several Pulitzer 
Prize winners. Each of us is privileged to teach a few hundred 
students each year about the Constitution and the birth of 
democracy.
    Our experience as teachers has been enormously rewarding, 
but our ``ambition''--a word I use in its disinterested 
eighteenth century sense--is to extend teaching--and learning--
well beyond the classrooms of our respective universities. If 
the ambitions of the National Constitution Center are realized, 
we will be able to reach millions of American citizens to 
inform them--as we do the students in our classrooms--about the 
priceless heritage Franklin and the other Framers bequeathed 
us.
    Thank you very much.

                             debating team

    Senator Specter. Well, thank you very much, Dean Beeman. 
You are a successor to Dean Glenn R. Morrow, who was Dean of 
the College of Arts and Sciences? You know Dean Morrow's work, 
or is that too old for you?
    Mr. Beeman. I think yes, it is past my time, although I 
have been at Penn a long time.
    Senator Specter. Well, he was the Dean when I was in 
school. The Oxford debating team came to debate the University 
of Pennsylvania and Penn did not do too well one year. Dean 
Morrow insisted upon having a split team debate the next year. 
The Oxford and the British people would travel around, charge 
$100 for each school, and they drew very sizable crowds. In 
those days they had a lot of people from World War II.
    My colleague and I wanted to debate them together. The year 
before they had had a split team where one Oxford fellow was on 
with one Penn fellow, so that there was no Oxford against Penn. 
Marvin Katz, who is now a Federal judge, and I went to talk to 
Dean Morrow, your predecessor, to try to persuade him to let us 
debate as a team.
    He was totally opposed to the idea until he saw the force 
of our argument, and then he agreed. We won the second debate 
with Oxford as well.
    When I see the Dean of the College of Arts and Sciences, I 
feel like reminiscing on the record for up to a minute and a 
half.
    Mr. Beeman. I congratulate you for that victory in the name 
of the college.
    Senator Specter. Well, since you have made a response I 
will tell you what the subject was. It was: Resolved, that the 
British Empire is decadent. We debated two Britishers: a man 
named Robin Day, who later became the British equivalent of 
Walter Cronkite, and a man named Jeffrey Johnson-Smith. Both 
were later knighted, and Jeffrey Johnson-Smith is in the 
Parliament and I see him from time to time on the North 
Atlantic Assembly.
    After the debate was over and the judges had voted in favor 
of Penn that the British Empire was decadent, my father walked 
onto the stage and said: Arlen, you are not a very good host. 
You brought these fellows all the way from Great Britain and 
now you prove that their empire is decadent. What kind of a way 
is that to treat these fellows? And I said: Dad, they got their 
100 bucks. [Laughter.]
STATEMENT OF JOSEPH M. TORSELLA, PRESIDENT, NATIONAL 
            CONSTITUTION CENTER
    Senator Specter. Back to business. Mr. Torsella, president 
of the National Constitution Center, we welcome you here and 
look forward to your testimony.
    Mr. Torsella. Good morning, Mr. Chairman, and thank you. 
The mayor whispered to me that I should disclose to you that I 
am also an alumni of Oxford as well as Penn, although, having 
heard that story, I am not sure that is a wise idea, but in the 
interest of full disclosure.
    Thank you for the opportunity to testify today and to echo 
what the mayor and Dr. Beeman said. Thank you for your 
longstanding leadership, not just in the past few days and 
weeks, but over many, many years, in support of the cause of 
constitutional education and the National Constitution Center.
    In the poll the Mayor discussed there is a lot of bad news, 
as you can see, but there are also glimmers of good news. One 
of the pieces of good news is that kids, like adults, are 
capable of taking information on board and remembering it when 
they think it is relevant and interesting to their lives. You 
see some scores up there in the 90's and high 80's when it is a 
fact that kids think has meaning for them in their daily life.
    Now, the Constitution Center with our ongoing educational 
outreach, we do a good job of reaching kids who already think 
that this information is relevant to them. I will just briefly 
share a letter we recently received from a student in 
Greenwood, SC. He wrote to us recently:
    ``Hi: My name is Terence Pea and I have to study for my 
test. Can I have a copy of the Constitution of the United 
States? I need to make an A-plus.''
    Now, that is sort of my definition of relevant and 
important to one's daily life. Terence is a very practical 
young man.
    The trouble is, as you can tell from the poll, for every 
Terence out there there are 20, 30, 40, maybe even 50 other 
kids who do not think the information is relevant and who we 
need to do more to get to them. That is why we have to 
rededicate ourselves to the goal articulated first in the 
legislation of building a physical place that can reach an 
audience vastly greater than the tens of thousands that we now 
reach.
    We are ready to do that. We have developed preliminary 
plans for the world's first museum devoted to what is truly the 
most remarkable document in political history, the United 
States Constitution. These plans have been developed, by the 
way, by some fairly remarkable minds of our day and age. You 
heard from Dr. Beeman how Dean Gary Hack of the University of 
Pennsylvania has been our senior design consultant on space and 
architectural issues. We will be announcing within the next 2 
weeks our official architect and exhibit designer and I am 
confident that those choices will be of the same caliber. Ralph 
Applebaum, who designed the noted Holocaust Museum and the 
Newseum, also nearby here, was the preliminary exhibit designer 
for the Constitution Center. And as Dr. Beeman mentioned, we 
have a number of Pulitzer Price-winning historians who are 
involved in the thematic content of it.
    The particulars of the building are that it would be 
132,000 square feet, it would be located on Independence Mall, 
we would reach more than a million visitors a year, and the 
total cost, as you know, of the entire mall project is over 
$200 million, with $130 million of that to the Constitution 
Center.
    I am going to give you a brief tour of the building from 
the visitor perspective, not from the architectural facts. As 
you enter the building, you become a delegate. You are asked 
not to take a passive approach, but an active approach to 
citizenship, just the way the people who signed the 
Constitution did.
    Your first stop is something called ``The Founding Story,'' 
and that is a brief film that gives all visitors the same basic 
set of knowledge about the origins of the Constitution and its 
historical perspective. From there you can go on to one, two, 
or all six of six different thematic zones that deal with the 
important themes of the Constitution. Each takes its title from 
words in our founding document.
    The first is called ``This Constitution'' and that relates 
to the basic structure of government. The second is called 
``Promoting the General Welfare,'' and that is the way that 
government and society interact. The third, called ``A More 
Perfect Union,'' deals with issues of Federalism. The fourth, 
``Created Equal,'' addresses equality in America and how we 
have struggled toward a more perfect approximation of that. The 
fifth, ``Blessings of Liberty,'' is related to rights and 
responsibilities of citizens. And the last, ``To Our 
Posterity,'' looks at democracy in the future.
    In each of these levels you can explore as much or as 
little as you like, and there will be attractions geared not 
just for people who know a lot, but for people who know very 
little.
    Finally, your last stop is something called ``Signer's 
Hall,'' and there you will see an original copy of the 
Constitution, but you will be given the opportunity, using a 
laser pen, to sign your name and to receive a parchment 
replica, which includes your name as well as those of the 
original signers, affirming your citizenship and taking the 
same leap of faith that the founders did.
    All of these things, though, are just half of what happens 
there. Behind the scenes, there are activities that are going 
to reach more than the million visitors who come, many millions 
more, hopefully tens of millions. There will be a virtual 
museum where all of the museum's activities will be paralleled 
on line, so that a student in Alaska can come to the museum 
even if she cannot come to Philadelphia. There will be 
curricula and lesson plans for teachers.
    Senator Specter. Tell us a little bit more about how the 
student from Alaska participates even though she does not come 
to Philadelphia?
    Mr. Torsella. Well, there is technology available now so 
that when the physical museum is constructed that reality can 
be mirrored on-line on the Internet, so that someone can, using 
virtual reality, walk through a room and see exhibits. If she 
sees an exhibit related to the Civil War and Union, she can 
click on a picture of Abraham Lincoln and learn more about 
that.
    Senator Specter. That could be done at the center, but also 
on Internet?
    Mr. Torsella. Absolutely. Further, that person can also 
engage in actual ongoing discussions through the Internet with 
other people, both at the center and elsewhere, who are 
interested in the same topics. That kind of discourse and 
discussion is an important part of what we hope to accomplish.
    Mr. Rendell. Just for another example, Senator, if I can 
cut in, the room where the visitors will actually hear the 3- 
to 5-minute presentations on each side of a current 
constitutional issue, assume it was Senator McCain, you could 
press a button and hear and see Senator McCain's 3- to 5-minute 
presentation on one side of the issue, someone else on the 
other side of the issue. You can actually see that and hear 
that on your computer at home.
    Mr. Torsella. A third behind the scenes function of the 
center will be to be a center for production of broadcast 
content, television and radio debates on constitutional issues 
in current events, where you could have debates between 
presidential candidates, but, more importantly, you could have 
debates between presidents of high school classes or even maybe 
the University of Pennsylvania and Oxford rematch.
    Last, there would be a center for scholars and residents. 
An important distinction: This would not be a center where 
scholars speak only to other scholars, but where scholars speak 
to ordinary citizens and help make this knowledge available to 
all of us.
    Now, in this description there are two important points 
that I would like to emphasize and then I will close. The first 
is that this is a museum with an agenda, with a purpose. We 
want people, however they come in, whether they come in 
electronically or physically, they come in as tourists, but we 
want them to leave as citizens. We want them to leave with a 
new level of information and, most importantly, an 
understanding that it is their individual participation in 
democracy that keeps it healthy.
    Second, we call this a museum because we have not thought 
of the right word. This is meant to be much more than a museum. 
It is meant to be interactive, engaging, dynamic, entertaining, 
and even fun, because if it is those things we can reach people 
and communicate important educational content that might not be 
reached by more traditional means and who clearly are not being 
reached by more traditional means.
    We are now entering the most important phase of the work 
and this is the work for which we have requested the 
committee's support over the next year. The detailed exhibit 
planning and design and content development and story 
development that has to take place over the next 12 months is 
what we determine whether we succeed in this or fail in this 
mission and how effective we are.

                           prepared statement

    With your support, we can make this a place as remarkable 
as the document that it commemorates. If we do that, we can 
make all American kids and adults A-plus students and not just 
Terence Pea.
    Thank you.
    Senator Specter. Thank you very much, Mr. Torsella.
    [The statement follows:]
                Prepared Statement of Joseph M. Torsella
    Good morning, Mr. Chairman. It is an honor to testify today before 
this committee. All of us involved in the National Constitution Center 
thank you for your interest and for your time, and commend you for your 
longstanding leadership in making constitutional education a national 
priority.
    As you know, the National Constitution Center (NCC) was created as 
an independent, non-profit and non-partisan organization by Congress in 
the Constitution Heritage Act of 1988. At the heart of this legislation 
was a recognition by Congress of the need for ongoing education of all 
of our citizens on the U.S. Constitution. In the words of the Act, 
``educational programs for the Constitution should continue after the 
bicentennial to document its profound impact on the political, 
economic, and social development of this Nation.'' Most ambitiously, 
the Act contemplated that someday NCC would establish a physical site 
devoted to explaining the Constitution to visitors at the place of its 
birth: Independence National Historical Park, in Philadelphia.
    Mr. Chairman, that someday is today. NCC has finalized plans to 
create the Constitution Center--the first-ever museum honoring and 
explaining the world's most important political document. As you know, 
we are seeking federal support of this important project in the fiscal 
year 1999 budget in the total amount of $20 million, with equal 
portions coming from both Interior and Education related budgets. You 
will hear this morning from my colleague Dr. Richard Beeman, a 
distinguished professor of early American history and a visiting 
scholar at NCC, about why constitutional education is so important to a 
healthy democracy. You will also hear from Philadelphia's Mayor, Edward 
G. Rendell, who is chairman of NCC's Board of Directors. Mayor Rendell 
will discuss our funding request in the context of local and 
philanthropic efforts related to the entire Independence Mall project, 
and will also share the disturbing results of a new national poll of 
American youth recently conducted by NCC. But first, I would like to 
tell you a bit more about plans for the Constitution Center museum and 
why this project represents the ultimate fulfillment of the educational 
mission charted by Congress 10 years ago.
    The Constitution Center will appropriately be located on 
Independence Mall, just steps from where the Constitution itself was 
written. It will dramatically tell the story of the United States 
Constitution to the one million visitors expected to enter its doors 
each year. The facility will be 132,000 square feet, and is scheduled 
to break ground on Constitution Day (September 17) in the year 2000, 
and to open its doors to the public two years later. The total capital 
budget for the project is $130 million. As the first institution 
dedicated to telling the story of this extraordinary document, the 
Center will be one of the most important educational resources in the 
21st century for Americans, and indeed for all people around the world 
struggling to adopt constitutional governments and functioning 
democracies.
    When they enter the Constitution Center, visitors will register as 
delegates, just as Washington, Madison, and Franklin were at the 
Constitutional Convention in the summer of 1787. By becoming delegates, 
visitors discover how important they are as individuals and as members 
of communities to the ongoing American democratic experience. This act 
will be the first of many devices throughout the Center that will 
transform visitors from passive observers into active participants--a 
transformation the Constitution itself demands that we adopt to 
preserve our freedoms.
    The visitor experience will begin with ``The Founding Story,'' a 
dynamic cinematic introduction to the Constitution Center through which 
visitors will experience the heady excitement of a nation experiencing 
its newfound independence, the difficult days of forging the new 
nation, the wrenching debates over slavery and representation, and the 
cautious hope that dawned with the Constitution and the Bill of Rights. 
From there, visitors will move through six themed areas whose titles 
take their inspiration from words in the Constitution and the 
Declaration of Independence.
    ``This Constitution'' explores the structure of government while 
``Promoting the General Welfare'' asks visitors to consider the 
relationship between government and society. In ``A More Perfect 
Union,'' our attention centers on federalism and states rights, and in 
``Created Equal,'' we explore the changing meanings of equality in our 
society. Journeying through ``The Blessings of Liberty,'' visitors 
learn about rights and responsibilities, and in ``To Our Posterity,'' 
we see visions of our future, with interactive galleries delving into 
``on-line democracy.''
    As we leave these six themed areas, we enter the final of the 
Center's permanent exhibition spaces, Signer's Hall, a dramatic and 
reverent conclusion to our journey. Here, a copy of the Constitution is 
on display. And just like the original delegates, we are asked to judge 
whether or not to adopt it. Using a laser pen and our Delegate's Pass, 
we can sign the Constitution, adding our names to those of the millions 
of visitors stored in a permanent electronic data bank. And as we 
leave, we receive a signed parchment replica of the Constitution.
    The experience of the one million physical visitors is only part of 
what will happen at the Center. What happens behind the scenes will 
reach many millions more. A third grader in Alaska can visit the 
Constitution Center's virtual museum--even if she can't come to 
Philadelphia. A schoolteacher in Paris--Texas or France--can get free 
curricula and lesson plans on the Constitution. And a senior citizen in 
Seattle can watch a televised debate on the latest proposal for a 
constitutional amendment. One speaker might be a presidential 
candidate. The other might be president of her senior class. There will 
be nationally-televised debates from an in-house production studio, a 
major internet presence, using ``virtual museum'' technology, 
newsletters and publications, polling, and off-site school programs. 
The Center will also boast a study and resource center for teachers, 
scholars, and students.
    I hope that from this description several facts will be apparent to 
you. First, although we call this place a ``building'' or a ``museum,'' 
it will really be much more than either of these words suggest. The 
visitor experience will be worlds apart from the typical museum tour. 
It will be interactive, engaging, educational, and entertaining. 
Everywhere visitors turn they will find activities, films, shows, and 
interactive exhibits to engage their interest. In this way, we hope to 
capture the hearts and minds of both adults and children who previously 
had little understanding of the Constitution's role in their daily 
lives, and who might not be reached by more typical educational 
methods.
    In short, we expect that the Constitution Center will be a sort of 
headquarters for spreading a message across our culture that each of us 
has a vital role to play in ensuring that the hard-won freedoms 
embedded in our Constitution are passed along intact to the next 
generation. Whoever our visitors are, however they arrive, we want them 
to leave as informed citizens.
    We stand ready to undertake this challenge. In the past 18 months, 
a number of important developments have set the stage for the next 
phase of our work:
  --The National Park Service (NPS) completed its General Management 
        Plan (GMP) which will guide the Park's development for the next 
        several decades. The GMP endorsed the inclusion of the 
        Constitution Center on Independence Mall, federal parkland.
  --NPS also completed a master design plan for the Mall. This design, 
        by noted landscape architect Laurie Olin, situates the 
        Constitution Center prominently on the third block of the Mall, 
        facing Independence Hall, making the Center the vital northern 
        anchor of the Mall.
  --The interpretative vision for the Center was developed and 
        articulated with assistance from an extraordinary group of 
        scholars from around the country, and by Ralph Appelbaum, the 
        award-winning designer of the Holocaust Museum in Washington. 
        This vision--which sees the Constitution both as the creator of 
        a nation, and a protector of individuals--was elaborated in an 
        8-minute video, ``Imagine a Place,'' produced by NCC to 
        describe the visitor experience.
  --The Pennsylvania General Assembly authorized a $30 million capital 
        contribution towards the construction of the Constitution 
        Center, and NCC will shortly announce major developments in its 
        private fundraising efforts.
  --Using the GSA's Design Excellence Program, NCC engaged in a 
        national search for the nation's best architectural and 
        exhibition designers. NCC will announce its design team, both 
        architect and exhibit designer, later this month. The 
        Constitution Center will truly come to life with preliminary 
        sketches and plans as early as the spring and summer of 1999.
    Because of these developments, we are now ready to tackle the most 
critical phase of creating the Constitution Center: the detailed 
planning that is required for a project of this magnitude. It is for 
this work that we seek this committee's support. In the next year, we 
will intensively study, develop, and design the educational core of the 
Constitution Center, working with the nation's leading educators and 
scholars. We will now lay the educational groundwork that will ensure 
that future generations have the resources they deserve to grasp the 
role the Constitution plays in their government.
    In the Constitution Heritage Act ten years ago, Congress first 
articulated an ambitious and worthwhile goal: that there would 
eventually be established within Independence National Historical Park 
a center dedicated to the Constitution, from which would emanate 
nothing less than a ``national program of public education on the 
Constitution.'' Today, we are poised to achieve that worthwhile goal, 
and with the support of this committee, we shall.
    Thank you.

                            country symbols

    Mr. Rendell. Can I add one last thing that Joe's recitation 
reminded me of. I think for Americans to feel good about 
themselves and their country symbols are important, too. I know 
one of my police officers drove me down last night to 
Washington, and he had never been to Washington, D.C., before. 
We came down North Capitol Street off New York Avenue because I 
was staying at the Capitol Hyatt, and he looked at the Capitol 
Building, as you can see it when you turn onto North Capitol, 
lit up and gleaming. He is an Hispanic officer, born in Puerto 
Rico and lived in Philadelphia for the last 30 years, and this 
is a fairly hardened Philadelphia policeman. He was touched by 
what he saw, I mean truly touched by what he saw. It is a 
beautiful site.
    I want to close our presentation by just asking you to 
think about being an American citizen, never been in 
Philadelphia before, read a little bit about the Declaration 
and the Constitution, et cetera, and you are touring 
Independence Hall and you come out of Independence Hall and you 
look down the mall, and at the other end of the mall, two 
blocks away, you will see the Constitution Center.
    As you come out of Independence Hall or the Liberty Bell 
Pavilion and you look down at the Constitution Center, whatever 
the building will look like--and we do not know that yet 
because we have not picked the architect--but above the 
entranceway in very graphic form will be three words: ``We the 
People.''
    I submit to you that that can be as moving a site to 
Americans as what my detective saw last night seeing the 
Capitol for the first time.
    Senator Specter. Well, that is very impressive, and thank 
you for the presentation.
    Let me ask for an enumeration as to how the Constitution 
Center will be applicable or of advantage to the other 49 
States or distant parts of Pennsylvania? Specifically identify 
that so that I may repeat them to the House members and my 
colleagues in the Senate.
    Mr. Torsella. First of all, I would point out that our 
current educational offerings, we are of advantage to all 50 
States. The signings program that the Mayor mentioned takes 
place in all 50 States and this September is also going to take 
place in all 50 States. Our files are filled with letters from 
all these States and from communities large and small about the 
meaning of this program.
    Those same people, by the way, write to us.
    Senator Specter. You say the signing, where somebody signs 
the Constitution?
    Mr. Torsella. Yes.
    Senator Specter. That can be done in other States?
    Mr. Torsella. That can be done. We currently do that in 
other States and we archive the scrolls for the future 
Constitution Center.
    Now, those people, by the way, when they write back to us, 
not only do they tell us how effective the signing us, but when 
we let them know what our plans are related to the Constitution 
Center there is an enormous amount of interest from these 
people in visiting the Constitution Center. If I can, I 
actually have some examples of some letters.
    Nita Skoagland in Rome, New York: ``My grandson is very 
interested in history. I would bring him with me.''
    Hazel Park, Missouri: ``The Constitution Center sounds fun 
and educational. I would really love to go.''
    Senator Specter. Tell me now, the signing can be done now. 
What will be unique after the Constitution Center is put up 
that cannot be done now?
    Mr. Torsella. Well, the difference is that when people 
partake in our signings, either offsite or on the Constitution 
Center, their names will become part of a permanent record that 
we hope will become an enormous percentage of all Americans who 
have ``signed the Constitution'' and affirmed their 
citizenship, so that in the center will be a vast permanent 
record of millions upon millions of signatures.
    The first point I want to make is that we expect 
visitation, which is currently, at Independence Mall, 
visitation is very national and international, we expect that 
to be true for the Constitution Center.
    Second, the behind the scenes things that I talked about 
are not trivial. They represent about half of the space in the 
center. It is our intent that things like television 
broadcasts, things like Internet debates and national 
electronic town meetings be half of the center's priority, not 
just for the physical visitor, so that those people who are 
lucky enough to come, we would certainly like to see them. 
Those people that cannot come, we would like to see them 
electronically, or perhaps those people who are planning to 
come we would like to see before they get there.
    Senator Specter. Of course, the Constitution Center has to 
be in existence and you have to have all these programs so they 
can be tapped into electronically.
    Mr. Beeman. You know, Senator Specter, my view of this may 
be biased by the fact that I have chosen to be a historian of 
18th century America. But whenever I walk into Independence 
Hall I am filled with emotion at the achievement of the people 
who gathered there first in 1776 and in 1787. It is not just an 
educational experience. It is a profoundly emotional one, and I 
think it is for millions of visitors as well.
    I think all of our hopes is that when people come to the 
National Constitution Center some time early in the 21st 
century that they are going to have that same kind of 
experience, not just an educational experience, but an 
emotional one. It really is an experience which, as you look 
down the mall, which links that wonderful eighteenth century 
history to the promise of the future.
    Mr. Torsella. Senator, one final point on this subject. You 
here in Washington can see from the experience of the Holocaust 
Museum how an institution can cast a shadow that is much larger 
than its physical presence. Kids and adults all around the 
country have a new understanding of that subject because of the 
place that that museum has taken in our culture.
    We hope to be, similarly, not just a museum, but much more 
broadly a presence in the American culture.

                         conclusion of hearings

    Senator Specter. Well, it is enormously impressive and we 
will work hard to help you with the funding. That is obviously 
indispensable. We have our work cut out in the Senate, but more 
specifically in the House.
    We told you we would get you out of here by noontime and it 
is 2 minutes to 12. So we thank you very much for being here, 
that concludes our hearing. The subcommittee will stand in 
recess subject to the call of the Chair.
    [Whereupon, at 11:58 a.m., Wednesday, September 2, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                  <all>

</pre></body></html>
